<html>
<title> - DEPARTMENT OF HOMELAND SECURITY TRANSITION: BUREAU OF IMMIGRATION AND CUSTOMS ENFORCEMENT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
 DEPARTMENT OF HOMELAND SECURITY TRANSITION: BUREAU OF IMMIGRATION AND 
                          CUSTOMS ENFORCEMENT

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 10, 2003

                               __________

                             Serial No. 11

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary
                       COMMITTEE ON THE JUDICIARY







                        U.S. GOVERNMENT PRINTING OFFICE

86-409                        WASHINGTON : 2004
_____________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800
Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC  20402-0001

                             



            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

JEFF FLAKE, Arizona                  SHEILA JACKSON LEE, Texas
MARSHA BLACKBURN, Tennessee          LINDA T. SANCHEZ, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           HOWARD L. BERMAN, California
CHRIS CANNON, Utah                   JOHN CONYERS, Jr., Michigan
STEVE KING, Iowa
MELISSA A. HART, Pennsylvania

                     George Fishman, Chief Counsel

                           Lora Ries, Counsel

                   Art Arthur, Full Committee Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel



                            C O N T E N T S

                              ----------                              

                             APRIL 10, 2003

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  From the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     3
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................     5

                               WITNESSES

The Honorable Asa Hutchinson, Under Secretary for Border and 
  Transportation Security, U.S. Department of Homeland Security
  Oral Testimony.................................................     6
  Prepared Statement.............................................     9
Mr. Mark Krikorian, Executive Director, Center for Immigration 
  Studies
  Oral Testimony.................................................    12
  Prepared Statement.............................................    15
Mr. Timothy J. Danahey, National President, Federal Law 
  Enforcement Officers Association
  Oral Testimony.................................................    22
  Prepared Statement.............................................    24
Mr. Richard M. Stana, Director, Homeland Security and Justice, 
  U.S. General Accounting Office
  Oral Testimony.................................................    31
  Prepared Statement.............................................    33

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement by the Honorable John N. Hostettler, a 
  Representative in Congress From the State of Indiana, and 
  Chairman, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................    55
Representative Hostettler additional questions for the record....    56
Prepared Statement by the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas, and Ranking 
  Member, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................    57
Representative Jackson Lee letter to Representative Hostettler...    58
Representative Gekas letter to Commissioner Ziglar regarding 
  INS's Interior Enforcement Strategy hearing June 19, 2002......    60
MALDEF statement for the record submitted by Representative 
  Sanchez........................................................    66
Representative King response to MALDEF statement.................    72
Representative Blackburn additional questions for the record.....    75


 DEPARTMENT OF HOMELAND SECURITY TRANSITION: BUREAU OF IMMIGRATION AND 
                          CUSTOMS ENFORCEMENT

                              ----------                              


                        THURSDAY, APRIL 10, 2003

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:03 a.m., in 
Room 2237, Rayburn House Office Building, Hon. John Hostettler 
[Chairman of the Subcommittee] presiding.
    Mr. Hostettler. The Subcommittee will come to order.
    Ms. Jackson Lee. Mr. Chairman, I have a point of order.
    Mr. Hostettler. Ms. Jackson Lee is recognized for her point 
of order.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    I object to this hearing on the grounds that the minority 
was not properly notified on the change of time. If I might 
read into the record:
    ``The Subcommittee chair shall make public announcement of 
the date, place, and subject matter of any hearing to be 
conducted by it on any measure or matter at least 1 week before 
the commencement of that hearing. If the Chairman of the 
Subcommittee, with the concurrence of the Ranking minority 
Members, determines there is good cause to begin the hearing 
sooner, or if the Subcommittee so determines by majority vote, 
a quorum being present for the transaction of business, the 
Subcommittee Chairman shall make the announcement at the 
earliest possible date.''
    I believe, Mr. Chairman, that there was quite a bit of 
discussion yesterday about the inappropriateness of this 9 a.m. 
meeting for several of us who had leadership whip meetings and 
other responsibilities, and the Ranking Member specifically 
indicated that this would not be an appropriate time for this 
hearing.
    I had to notify my minority Members late into the evening 
because the word came back that this meeting was going to be 
held anyhow. I think, in the spirit of comity and fairness, it 
is appropriate that we work together.
    This meeting time was raised at the beginning of the 108th 
Congress, that this is a time that the Democratic leadership 
whip organization meets, and other meetings of our Members. As 
I understand it, a number of our Members are in the leadership 
whip meeting at this time, and this time does not fare well for 
the fairness of this Committee, which I know, Mr. Chairman, 
that you are, if I might say, a distinguished gentleman who 
believes very much in the fairness of the process.
    For that reason, I believe that this hearing should not go 
forward, inasmuch as only two procedures for deciding to 
commence the hearing sooner than stated in the initial public 
hearing, neither of which was followed. The first requires the 
concurrence of the Ranking Member, and I did not concur. The 
second requires a majority vote at a Subcommittee business 
meeting. To my knowledge, no such meeting was held. So I am 
presenting this letter to you.
    I would have possibly been able to accept a change if I had 
been notified earlier with respect to this change. I am aware 
that this meeting could have been set at a later time this 
afternoon. This is an important hearing and I believe that all 
Members of the Committee should be able to participate. This 
sudden change I don't think is in compliance with the Committee 
rules or the Rules of the House.
    With that, Mr. Chairman, I thank you very much for your 
consideration. I would like to put this letter into the record, 
please. I have a copy for you.
    Mr. Hostettler. Without objection.
    [The letter of Ms. Jackson Lee follows in the Appendix]
    Mr. Hostettler. The Chair now recognizes himself for a 
brief explanation.
    As the Ranking Member knows, and as she stated, the full 
Committee will be considering the Protect Act on the floor 
shortly, and as the hearing was originally scheduled for 10 
o'clock, it was felt by the Committee that we would be both in 
this hearing and considering the Protect Act, which was not 
advisable. So the decision was made to hold the meeting 1 hour 
earlier in order to potentially accommodate all those, 
including the witnesses who--I once again want to say, if I do 
not have the opportunity to say it, that I appreciate your 
being able to accommodate the earlier schedule.
    It will not be the practice of this Subcommittee to change 
the schedule in this fashion, but given the dynamic that we 
originally scheduled--we were going to have this hearing on 
March 27th, and as a result of the confirmation process with 
the new Bureau of Immigration and Customs Enforcement not 
having been completed in the other body, we postponed the 
meeting and ultimately scheduled it at this time when we were 
able to get the Under Secretary to testify.
    So, once again, as the chair I want to apologize for the 
change in the meeting, but I believe that circumstances, 
unfortunately, dictated that we act in this manner. With that--
--
    Mr. Flake. Mr. Chairman.
    Mr. Hostettler. The chair recognizes the gentleman from 
Arizona.
    Mr. Flake. I move that the Subcommittee proceed with the 
noticed hearing.
    Mr. Hostettler. The question is on the motion to proceed. 
All in favor will signify by saying aye. Those opposed will 
signify by saying no.
    Ms. Jackson Lee. Roll call, Mr. Chairman.
    Mr. Chairman, may I ask, do we have a quorum?
    Mr. Hostettler. Yes, we do have a quorum for the motion, 
consideration of the motion.
    The Clerk. Mr. Flake.
    Mr. Flake. Aye.
    The Clerk. Mr. Flake votes aye. Mrs. Blackburn. [No 
response.] Mr. Smith----
    Ms. Jackson Lee. Mr. Chairman, I have a parliamentary 
inquiry.
    Mr. Hostettler. The gentlelady will state her parliamentary 
inquiry.
    Ms. Jackson Lee. Only to inquire, that it is my 
understanding that the vote is supposed to occur before the 
change has occurred. I would like a ruling on that question.
    Mr. Hostettler. The vote on the motion to proceed?
    Ms. Jackson Lee. Yes.
    Mr. Berman. Would the gentlelady yield?
    Ms. Jackson Lee. I would be happy to yield.
    Mr. Berman. Just on the point of order, before you can hold 
the hearing, there has to be a vote.
    Ms. Jackson Lee. That is my understanding.
    Mr. Hostettler. The appropriate quorum is available for the 
purpose of considering the motion to proceed with this hearing.
    Ms. Jackson Lee. Mr. Chairman, I will offer an objection to 
that. Is that the ruling of the parliamentarian or the 
representative of the parliamentarian?
    Mr. Hostettler. It is the ruling of the Chair.
    Ms. Jackson Lee. Then I will continue to object. I will 
have a continuing objection.
    Mr. Hostettler. The question continues on the motion. The 
yeas and nays have been ordered.
    The Clerk. Mr. Flake.
    Mr. Flake. Aye.
    The Clerk. Mr. Flake votes aye. Mrs. Blackburn. [No 
response.] Mr. Smith. [No response.] Mr. Gallegly. [No 
response.] Mr. Cannon. [No response.] Mr. King. [No response.l] 
Ms. Hart.
    Ms. Hart. Aye.
    The Clerk. Ms. Hart votes aye. Miss Jackson Lee.
    Ms. Jackson Lee. No.
    The Clerk. Ms. Jackson Lee votes no. Ms. Sachez.
    [No response.] Ms. Lofgren. [No response.] Mr. Berman.
    Mr. Berman. No.
    The Clerk. Mr. Berman votes no. Mr. Conyers. [No response.] 
Mr. Chairman.
    Mr. Hostettler. Aye.
    The Clerk. The Chairman votes aye.
    Three ayes, two noes, Mr. Chairman.
    Mr. Hostettler. Without objection, the motion to reconsider 
is laid upon the table.
    Last year Congress enacted the Homeland Security Act, 
historic legislation creating not just a new department in the 
Executive branch, but a new home for our newly structured 
immigration system. Now that the immigration functions have 
transferred into the Homeland Security Department, we must 
closely oversee the transition to ensure that our immigration 
laws are strictly enforced and that our immigration benefits 
are fairly administered.
    Since we are at this immigration crossroads, we have the 
perfect opportunity to, as accurately as possible, determine 
what resources are needed to administer and enforce our current 
immigration laws. The Homeland Security Act required that the 
Immigration Services Bureau receive a budget separate from that 
of the Immigration Enforcement Bureau. This will help each 
bureau better manage its mission and help us better determine 
the proper amount of resources needed by each.
    Subsequent to the Homeland Security Act being signed into 
law, the new department reorganized enforcement functions into 
two categories: the border and the interior. The department 
combined the Customs interior enforcement functions with the 
INS' Investigations, Detention and Removal, Intelligence and 
the Deportation Attorney Corps to create the Bureau of 
Immigration and Customs Enforcement. T he department also 
combined the Customs border functions with the INS' Border 
Patrol and Inspections to create the Bureau of Customs and 
Border Protection, or BCBP.
    This hearing focuses on the interior bureau, or ICE, it's 
transition into the new Department, and its resources. For 
example, in the Justice Department Inspector General's recent 
report, the Immigration and Naturalization Service's removal of 
aliens issued final orders, the Inspector General found that 
aliens with final orders of removal who are not detained are 
rarely deported. Taking a sample of nondetained aliens, the 
Inspector General found that the INS removed only 13 percent of 
nondetained aliens with final removal orders. Within the 
sample, only 35 percent of aliens with criminal records were 
removed. Finally, only 3 percent of non-detained aliens with 
final removal orders who were denied asylum were removed.
    The Inspector General also selected a sample of non-
detained aliens with final removal orders from countries that 
the State Department has identified as sponsors of terrorism. 
The Inspector General reported that the INS removed only 6 
percent of this population.
    In sharp contrast, 92 percent of detained aliens with final 
removal orders were removed according to the Inspector General. 
The INS' typical response to such findings has been that it 
lacks the resources to remove more aliens with final removal 
orders.
    For too long, the former INS complained that it could not 
adequately do its job because the agency did not receive enough 
resources from Congress. That practice of buck-passing needs to 
end.
    In a letter dated June 21, 2002, this Subcommittee 
specifically asked the former INS what resources it needed to 
enforce our immigration laws, but the agency was utterly 
unresponsive in its October 21st, 2002 response.
    This new Department requires a new attitude. The American 
people want our immigration laws enforced. We want the Bureau 
of Immigration and Customs Enforcement to succeed, but it needs 
to help us if we are to be of help. When we ask what resources 
the agency needs to fully enforce all of our immigration laws, 
we need an honest answer. Otherwise, we cannot attempt to 
authorize and appropriate sufficient funds. If the new agency 
continues INS' practice of being unresponsive, it should not 
complain that Congress underfunds the agency. Likewise, if 
Congress is told what resources are needed but falls short on 
authorizing and appropriating funds to the BICE, Congress 
should not complain that the agency is not adequately enforcing 
the laws. More important, if Congress does not fully fund BICE, 
Americans will remain unprotected from future terrorist 
attacks.
    The purpose of this hearing is to examine the transition of 
immigration enforcement into BICE, explore the capabilities and 
limitations of BICE, given the current resources available to 
the agency, and determine what resources would be needed to 
fully execute our immigration enforcement laws.
    Without objection, the letters mentioned from the various 
agencies and the Inspector General will be placed into the 
record.
    Mr. Hostettler. I want to thank the witnesses for being so 
flexible in arriving here today.
    I will now turn to the Ranking Member, the gentlelady from 
Texas, Ms. Jackson Lee, for any opening remarks she may have.
    Ms. Jackson Lee. Thank you, Mr. Chairman. I am going to 
rely upon the request to put my entire opening statement into 
the record and ask unanimous consent for such.
    I also hopefully want to make clear on the record, Mr. 
Chairman, with my continuing objection, that representations by 
staff that the meetings will be held at all times at 9 a.m., I 
would like to inquire of the Chairman if that's going to be the 
policy of this Subcommittee, 9 a.m. on Thursday mornings.
    Mr. Hostettler. I will work, as Chairman of the 
Subcommittee, to make the meetings at a later time.
    Ms. Jackson Lee. I thank the Chairman for his kindness.
    Might I just simply point out, Mr. Chairman, that I will be 
leaving around 9:30 and I would appreciate it if--it looks as 
if the Under Secretary is the first witness, and I would like 
to be able to at least hear the Under Secretary. I would like 
to submit this for the record.
    The only comment--and this will speak for itself--is to 
specifically make note of the special registration program that 
I believe is supposed to, or at least is alleged, to identify 
dangerous aliens in our midst. From my perspective, and from 
many of the constituents around the Nation, it substitutes 
national origin, racial, religious profiling for effective law 
enforcement based on intelligence and information. Again, I 
believe that, as we integrate these responsibilities into the 
Homeland Security Department, we make it very clear in the 
Judiciary last session that immigration does not equate to 
terrorism, and that there must be distinctive responsibilities 
of enforcement as well as immigration services. So I'm looking 
forward to hearing the testimony of the Under Secretary.
    As well, Mr. Chairman, I will work with you for this to be 
an effective merger, an integration, but not a denial of civil 
liberties and civil rights.
    With that, I ask to put my statement into the record.
    Mr. Hostettler. Without objection.
    [The prepared statement of Ms. Jackson Lee follows in the 
Appendix]
    Mr. Hostettler. Are there any other opening statements by 
Members of the Subcommittee? If not, I would like to introduce 
our panel of witnesses today.
    The Honorable Asa Hutchinson is the Under Secretary for 
Border and Transportation Security in the Department of 
Homeland Security. Prior to this position, he was Administrator 
of the Drug Enforcement Administration. We know him best for 
his membership in the House of Representatives for three terms, 
during which he served on the Judiciary Committee and the 
Select Committee on Intelligence. Under Secretary Hutchinson 
also practiced law in Arkansas for 21 years, when he was 
appointed by President Reagan as U.S. Attorney for Western 
Arkansas.
    Mr. Mark Krikorian is the Executive Director of the Center 
for Immigration Studies. Before joining the Center in 1995, he 
held a variety of editorial and writing positions. He received 
a master's degree from the Fletcher School of Law and 
Diplomacy, and a bachelor's degree from Georgetown University. 
He frequently testifies before Congress, has appeared on many 
radio and television programs, and has published many articles.
    Mr. Tim Danahey, a Special Agent with the Naval Criminal 
Investigative Service, is the National President of the Federal 
Law Enforcement Officers Association. He was a police officer 
with the Stonington Police Department in Stonington, CN before 
he was hired by the Naval Investigative Service in 1985. 
Following the events of September 11th, Mr. Danahey was 
assigned to the Counterterrorism Division within the Naval 
Criminal Investigative Service. He was in the U.S. Marine Corps 
before entering the Army, where he reached the rank of major. 
He is currently in the U.S. Army Reserves. He received a degree 
in psychology at the University of Rhode Island and completed 
the advanced study program at the Air Command and Staff 
College, Andrews Air Force Base.
    Mr.Richard Stana is the Director for Homeland Security and 
Justice Issues at the General Accounting Office. He has worked 
at the GAO for 27 years on issues relating to law enforcement, 
drug control, immigration, customs, corrections, court 
administration, and election systems. Mr. Stana is a U.S. Army 
veteran and earned a master's degree in business administration 
from Kent State University. He is also a graduate of Cornell 
University's Johnson School of Management Program on Strategic 
Decisionmaking and Harvard University's J.F.K. School, 
Government Program on Leadership and Performance.
    Gentlemen, without objection, your opening statements will 
be provided for the record. We are going to try to stay as 
close to the 5 minute time limit as we possibly can.
    Secretary Hutchinson, we thank you for coming today, once 
again, and revising your schedule to be with us. You are free 
to testify.

  STATEMENT OF ASA HUTCHINSON, UNDER SECRETARY FOR BORDER AND 
 TRANSPORTATION SECURITY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Hutchinson. Thank you, Mr. Chairman. Good morning, and 
Ms. Jackson Lee. Thank you for your support for the creation of 
Homeland Security and, as we go through this process, this 
Committee's support is very important. It's good to be back in 
the Judiciary Committee as well, even though I'm on a different 
side of the rostrum today.
    Obviously, my remarks shall be focused on the immigration 
enforcement side because that's the responsibility that falls 
to me at Homeland Security. But let me say at the outset that, 
even though I'm on the enforcement side of immigration, I also 
recognize the importance of immigration services and the 
extraordinary contribution that immigrants have made to 
America. I think that always should be noted as we engage in 
discussions on this subject.
    But at Homeland Security, as the INS functions were 
transferred to the Department of Homeland Security, the 
services side report directly to Secretary Ridge, under Eduardo 
Aguirre, who is doing an outstanding job. My responsibility 
would be on the enforcement side. That would include the new 
reorganization that took place on March 1, in which we have the 
Inspection Services under the Bureau of Customs and Border 
Protection, with the enforcement side of both immigration and 
customs enforcement being under the new Immigration and Customs 
Enforcement Bureau. The Border Patrol is also, I might add, 
reporting to the Customs and Border Protection, to have a 
unified face on the border reporting up through one chain. That 
leadership makes a difference in us carrying out our 
responsibilities.
    Both the Immigration and Custom Enforcement piece and the 
Customs and Border Protection Bureau report to me as the Under 
Secretary for Border and Transportation Security.
    I want to speak on the Bureau of Immigration and Customs 
Enforcement. It is responsible for investigating violations 
from migrant and contraband smuggling, to money laundering, 
from trade fraud and many other criminal activities frequently 
linked to terrorism, but also that have other enforcement 
responsibilities not linked to terrorism.
    Our mission includes having a robust intelligence 
component, air and marine interdiction capability, the ability 
to detain or remove illegal aliens. ICE is also charged with 
protecting more than 8,000 Federal facilities, since the 
Federal Protective Service is a part of that enforcement 
agency.
    All together, ICE brings together 14,000 employees, that 
include 5,500 criminal investigators. This makes it the second 
largest investigation team in Federal law enforcement, with 
only the FBI being larger. I want to note that we are 
diligently trying to integrate the training for our ICE special 
agents, which they come from two different agencies. Customs 
integration, it is important to integrate those closely 
together and we're working diligently on that.
    The transition of the Immigration and Customs Investigative 
resources has gone well. It will be completed as expeditiously 
as possible. It is our goal during this transition to make sure 
we bring them together, but not have any reduction in 
enforcement capabilities and the fulfillment of our mission 
during this time of transition.
    The President's '04 budget that has been submitted will 
increase our capabilities. The budget includes $1.1 billion to 
support investigative activities, including immigration, fraud, 
forced labor, trade agreement investigators, smuggling and 
illegal transhipment, vehicle and cargo theft. This includes an 
increase of 355 positions, which will be 207 criminal 
investigators, 72 attorneys, and 76 support personnel.
    As we move through the phased in integration of the 
Immigration and Customs Enforcement pieces, we started out with 
an interim structure that relies upon the existing chains of 
command. Within a matter of months, we will bring those 
management structures together and start doing more cross-
training that should yield a benefit.
    On May 24, we are due a report to this Committee detailing 
the separation of the enforcement functions and the 
organizational structure that is set up, and the procedure for 
interaction between ICE and CBP. We look forward to submitting 
that report.
    I have in my written testimony that is submitted an outline 
of some of the investigative priorities and current operations. 
I will try not to delve into that deeply, but let me just touch 
upon the fact that we certainly, since September 11, have had 
to prioritize investigations that have a relationship to 
counterterrorism. In conjunction with that, we have joined with 
the FBI in interviewing over 6,800 individuals since September 
11th, and as part of ongoing Liberty Shield, we have 
interviewed with the FBI scores of people, really hundreds of 
people, that are of concern, that we want to have more 
information on.
    In January of 2002, we started an initiative called the 
Alien Absconder Apprehension Initiative, which as the Chairman 
noted is of a significant concern. The first phase targeted 
more than 5,900 aliens from countries where al Qaeda is known 
to operate. In the second phase of this, we will look at the 
additional 300,000 aliens that have not left the country 
despite having final orders of removal.
    We have engaged a worksite enforcement strategy that 
targets those airports, airlines particularly, that have 
vulnerabilities from perhaps the employment of unauthorized 
workers. That includes Operation Tarmac, in which we reviewed 
the employment eligibility verification forms of more than 
224,000 employees, and more than 900 unauthorized aliens have 
been arrested in conjunction with that operation.
    We have also prioritized looking at terrorist organizations 
that use human smuggling rings. This is under Operation 
Southern Focus that targets large-scale smuggling operations. 
This has to be a continued priority because these smuggling 
operations can be used by those that want to move illegal 
aliens into our country, but also can be used by those that 
have an intent to harm our country.
    As you know, Mr. Chairman, and Ms. Jackson Lee, we have 
instituted the SEVIS program to look at the foreign students 
that have visited our country. We are trying to improve that 
process, but clearly, it is important to track those students, 
to make sure that those students who do not show up for school 
at the educational institution we have knowledge of and can 
investigate further as to where they are, why they're out of 
status, and what action should be taken.
    We have implemented, as part of the entry/exist system 
that's been mandated by Congress, the initial step of the 
NSEERS program, the National Security Entry Exit Registration 
System. To date, we have reviewed more than 110,000 individuals 
from over 140 countries being registered in accordance with 
that program. To date, that program has identified 11 aliens 
that have a link to terrorism and has arrested more than 50 
criminal aliens. We are continuing to try to improve the 
processing of that so we do not send a signal unnecessarily to 
our foreign guests that they are not welcome in the United 
States, because that is an important part of our outreach to 
other countries.
    We have as an important part of our efforts the Law 
Enforcement Support Center located in Burlington, VT. The focus 
of that is to support local law enforcement agencies in trying 
to determine, when they have contact with an individual, 
whether that person is, in fact, an illegal, criminal, or 
fugitive alien. So that center is very helpful in responding to 
requests from local law enforcement.
    I will conclude with that, with this Committee, and I look 
forward to responding to any questions that might arise.
    [The prepared statement of Asa Hutchinson follows:]
                  Prepared Statement of Asa Hutchinson
    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE, thank you for the 
opportunity today to update you on the transition of the legacy 
Immigration and Naturalization Service (INS) and the U.S. Customs 
Service into the newly created Department of Homeland Security (DHS). I 
would like to focus on the establishment of the Bureau of Immigration 
and Customs Enforcement (BICE), and in particular the immigration 
enforcement component, a vital part of both the Bureau and the 
Department.
    When Homeland Security Act of 2002 abolished the INS, its 
enforcement functions were moved into the Border and Transportation 
Security Directorate. The interior enforcement functions of INS merged 
with the interior enforcement functions of Customs, and the Federal 
Protective Service (FPS) to form BICE, which deals with interior 
enforcement and investigations. The border functions of INS merged with 
the border functions of Customs and APHIS to form the Bureau of Customs 
and Border Protection (BCBP). Both BICE and BCBP report to me as the 
Under Secretary of the Border and Transportation Security Directorate 
(BTS).
    BICE is charged with enforcing immigration and customs laws within 
the United States, giving it one of the most complex and far-reaching 
missions within the Department. It is responsible for investigating 
immigration violations, migrant and contraband smuggling, money 
laundering, trade fraud, and many other criminal activities frequently 
linked to terrorism. Meeting these responsibilities as well as our 
other statutory missions, requires a robust intelligence capability, an 
air and marine interdiction capability, and an ability to apprehend, 
detain, and remove illegal aliens. In addition, BICE is charged with 
protecting more than 8,000 Federal facilities nationwide against 
terrorism, employing the Federal Protective Service (FPS) for that 
purpose.
    BICE brings together approximately 14,000 employees, including some 
5,500 criminal investigators. This makes it the second largest 
investigative team in Federal law enforcement, with only the FBI being 
larger. No mission of the U.S. government is more critical than 
protecting the Nation and the American people from future terrorist 
attacks, and that it what BICE along with its DHS and FBI partners are 
responsible for doing. The law-enforcement functions of BICE are 
fundamental to protecting the homeland, which is why we made carrying 
out these functions with minimal interruption our top priority during 
transition.
    To ensure continuity of operations and DHS proper DHS coordination, 
the BICE transition is being accomplished in a phased manner. On March 
1, components of the legacy INS, Customs and FPS came together under an 
interim reporting structure. Integration of these functions now occurs 
at BICE Headquarters. The interim structure relies largely on existing 
chains of command at the field level with the exception of the 
immigration interior enforcement functions, for which we have 
established interim District and Regional Directors for Enforcement. 
Significant work has already been done to analyze and design 
headquarters and field structures for the longer term, which we will be 
implementing over the next several months.
    The planning and decisions made to date will be incorporated in and 
supplemented by the implementation plan that DHS will send to Congress 
by May 24, in accordance with the Homeland Security Act. This plan will 
include detailed information about the separation of the legacy INS' 
enforcement functions, including:

        <bullet> LOrganizational structure of Headquarters and the 
        field;

        <bullet> LChains of command;

        <bullet> LProcedures for interaction among BICE, and CBP; and

        <bullet> LFraud detection and investigation.

    The transition of the legacy INS and Customs investigative 
resources and functions into BICE is proceeding with vigor, driven by a 
commitment to ensuring that it is completed as expeditiously as 
possible, while maintaining effective and comprehensive enforcement of 
immigration and customs laws. The President's FY 2004 budget request 
for BICE will bolster the Bureau's efforts to fulfill this commitment. 
The $2.8 billion request includes $1.1 billion to support investigative 
activities, including immigration, fraud, forced labor, trade agreement 
investigations, smuggling and illegal transshipment, vehicle and cargo 
theft. With these funds, BICE will protect the integrity of the lawful 
immigration system by countering alien smuggling, combating document 
and benefit fraud, and identifying and removing those who are in the 
United States illegally.
    Historically, enforcing our immigration and customs laws in the 
Nation's interior has been an exceptionally demanding and challenging 
mission. The tragic events of September 11, 2001, and our ensuing 
national commitment to combat terrorism and those who harbor and 
support terrorists added to the demands and challenges our agents face. 
Nevertheless, they remain undaunted.
    Our highest priority is preserving and protecting the security of 
our country and its citizens. To meet this priority, we developed a 
strategy designed to establish a robust continuum of enforcement from 
the Nation's interior to its borders and out to the farthest reaches of 
home countries of illegal aliens and goods and the countries they 
transit through coming to the United States. BICE's interior 
immigration and customs enforcement strategy seeks to:

        <bullet> LDeter, disrupt and disable terrorist plans, 
        organizations and support networks;

        <bullet> LIdentify, apprehend, and remove aliens who threaten 
        the safety and security of the nation;

        <bullet> LDeter and diminish smuggling and trafficking of 
        aliens;

        <bullet> LProtect businesses of national security interest from 
        the vulnerabilities created by the employment of unauthorized 
        alien workers;

        <bullet> LIdentify, apprehend, and remove alien criminals;

        <bullet> LMinimize immigration benefit fraud and other document 
        abuse; and

        <bullet> LRespond to community needs related to illegal 
        immigration.

    Currently, responsibility for meeting certain of these strategic 
objectives rests with the Special Agents and Deportation Officers who 
were reassigned to BICE from the legacy INS. BICE is also staffed by 
Special Agents from legacy Customs and the FPS. To differentiate among 
Special Agents, this testimony will refer to those who came from INS as 
``Special Agents with immigration expertise.'' Before moving on, it is 
important to note that we are working diligently to integrate training 
for both current and future BICE Special Agents, which will greatly 
expand our capability to enforce immigration law as well as to carry 
out our other customs-related enforcement functions.
    Special Agents with immigration expertise are tasked with a wide 
range of critical responsibilities related to thwarting terrorists and 
those who support them. These include serving on FBI-led Joint 
Terrorism Task Forces and the Foreign Terrorist Tracking Task Force. 
BICE Special Agents with immigration expertise working with the Joint 
Terrorism Task Forces play a significant role in strengthening our 
national security. They have been proactively investigating, targeting, 
and arresting known terrorists, terrorist organization leaders, 
members, and associates. Working closely with the FBI, these agents 
have conducted more than 6,800 joint interviews since September 11, 
2001.
    In addition, Special Agents with immigration expertise actively 
participate in Federal, state, and local task forces that target 
criminal activities and enterprises that frequently involve aliens. 
These include the Violent Gang Task Forces, which have been established 
in major cities across the country, and the Organized Crime Drug 
Enforcement Task Forces, which are active in nearly 60 U.S. cities.
    On March 20 of this year, agents from BICE began seeking out Iraqi 
nationals believed to be unlawfully in the United States and 
apprehending them. The joint initiative, carried out as part of 
Operation Liberty Shield, is aimed at taking individuals off the street 
who might pose a threat to the safety and security of the American 
people. The Iraqis targeted as part of the effort were identified using 
a range of intelligence criteria. The operation is ongoing.
    In January 2002, the investigations and detention and removal 
components of legacy INS launched the Absconder Apprehension 
Initiative. This initiative is aimed at aggressively tracking, 
apprehending, and removing aliens who have violated U.S. immigration 
law, been ordered deported, then fled before the order could be carried 
out. The first phase targets some 5,900 aliens from countries where Al 
Qaeda is known to operate or recruit. The second phase of this 
initiative focuses on the apprehension and removal of more than 300,000 
aliens with unexecuted final orders of removal. To facilitate locating 
these aliens, we are entering their names into the FBI's National Crime 
Information Center (NCIC) so that the added weight of other Federal, 
state, and local law enforcement officers is brought to bear on this 
mission.
    Special Agents with immigration expertise involved in work-site 
enforcement are also focusing their efforts on people who pose threats 
to our homeland security. Before September 11, the worksite enforcement 
strategy targeted employers who abuse their workers and violate other 
Federal and state laws, regardless of industry or geography. Today, we 
are more sharply focused on protecting businesses of homeland security 
interests from the vulnerabilities created by the employment of 
unauthorized workers.
    Operation Tarmac, for example, was launched in recognition of the 
fact that illegal workers at airports pose a serious security risk. It 
aims to ensure that people working in secure areas at airports were 
properly documented and to remove those without proper documentation. 
So far, more than 224,000 Employment Eligibility Verification Forms 
(Forms I-9) have been audited at more than 3,000 airport businesses. 
More than 900 unauthorized aliens have been arrested, with more than 
two-thirds of them being charged with criminal violations. As part of 
Operation Tarmac, security officials responsible for granting access 
badges to secure areas are being provided with fraudulent document 
training.
    Operation Glowworm, uses the same goals and methodologies to 
enhance the security of our Nation's nuclear power facilities. Field 
offices have already investigated 89 nuclear plants and facilities and 
65,000 permanent and contract employees with direct plant and facility 
access.
    BICE's Anti-Smuggling Program aims to dismantle smuggling 
organizations with links to terrorism and others groups that pose a 
risk to our national security. Available information indicates 
terrorist organizations often use human smuggling rings to move around 
the globe, which makes investigating and dismantling these 
organizations a vital part of our overall effort to enhance homeland 
security.
    Focusing our anti-smuggling resources on domestic security led to 
the initiation of Operation Southern Focus, a multi-jurisdictional 
effort launched in January 2002. This operation targeted large-scale 
smuggling organizations specializing in the movement of U.S.-bound 
aliens from countries of concern. Many targets of Operation Southern 
Focus were believed to be responsible for smuggling hundreds of aliens 
into the country. Since the inception of this operation, eight 
significant alien smugglers have been arrested and charged with alien 
smuggling violations, and significant alien smuggling pipelines have 
been severely disrupted.
    Ensuring that foreign students comply with the terms of their visas 
is also vital to our nation's security. That is why Student and 
Exchange Visitor Information System (SEVIS) was developed and deployed. 
This new Internet-based system will greatly enhance the government's 
ability to manage and monitor foreign students and exchange program 
visitors and their dependents during their stay in the United States.
    SEVIS maintains critical, up-to-date information that can be 
accessed electronically, making it a powerful tool for combating fraud 
and for ensuring that individuals comply with the terms of their visa. 
Student status violators who may present a heightened security risk are 
immediately referred to the BICE National Security Unit for appropriate 
action as determined by the Unit. All others are being prioritized 
based upon other factors such as criminal history and prior adverse 
immigration history, and then referred to the appropriate field office.
    The National Security Entry Exit Registration System (NSEERS) is 
also playing an important role in support of our anti-terrorism 
efforts. Since its implementation in September 2002, more than 110,000 
individuals from over 140 countries have been registered. Special 
Agents with immigration expertise are responsible for interviewing and 
processing NSEERS registrants referred for investigation of possible 
immigration violations, criminal violations, or on terrorism-related 
matters. To date, NSEERS has resulted in the identification of 11 
aliens linked to terrorism, the arrest of more than 50 criminal aliens, 
and the issuance of more than 6,200 notices to appear for removal 
proceedings.
    Immigration benefit and document fraud are also criminal activities 
that pose serious risks to national security. Investigating these 
activities is another responsibility of our Special Agents with 
immigration expertise, and it is also another area where BICE continues 
to have success even as its transition continues. Early last month, for 
example, agents seized tens of thousands of fraudulent government 
identity documents in New York City. These documents, which had a 
street value of more than $3 millions, included Resident Aliens Cards, 
Employment Authorization Cards, Social Security Cards, and driver's 
licenses from 10 different states.
    BICE extends the reach of its Special Agents by providing support 
to state and local law enforcement through the Law Enforcement Support 
Center (LESC) located in Burlington, Vermont. The Center's primary 
mission is to help local law enforcement agencies determine if a person 
they have contact with or have in custody, is in fact an illegal, 
criminal, or fugitive alien. The LESC provides an around-the-clock link 
between Federal, state, and local officers and the immigration 
databases maintained by BICE.
    When a law-enforcement officer arrests an alien, LESC personnel are 
able to provide him or her with vital information and guidance, and if 
necessary, place the officer in contact with an BICE immigration 
officer in the field. The partnerships fostered by the LESC increase 
public safety. Every day, they result in the apprehension of 
individuals who are unlawfully present in the United States, many of 
who have committed a crime and pose a threat to the local community or 
our Nation.
    In FY 2002, the LESC received 426,895 law-enforcement inquiries. 
These included 309,489 from state and local law enforcement, 24,646 
inquiries regarding foreign nationals seeking to purchase firearms, and 
24,646 investigative inquiries. The LESC lodged 2,112 detainers for the 
detention of unauthorized aliens. Additionally, the LESC processed 
3,818 queries relating to NCIC hit confirmation requests.
    Another way in which BICE continues to respond to the needs of the 
law enforcement community is through Quick Response Teams (QRTs), which 
have been established across the United States. There are BICE Special 
Agents with immigration expertise and Deportation Officers assigned to 
QRTs. Their primary duty is to work directly with state and local 
enforcement officers to take into custody and remove illegal aliens who 
have been arrested for violating state or local laws or who are found 
to be illegally in the U.S.
    Clearly, deterring illegal migration and combating immigration-
related crime have never been more critical to our national security. 
The men and women of BICE are tackling this challenging mission with 
great diligence, deeply determined to ensure that no duty is neglected 
even as they continue to adjust to their new home. I am eager to work 
with you and the other members of Congress make sure that they have 
what they need to provide the American people with the level of 
security they demand and deserve. Thank you. I look forward to your 
questions.

    Mr. Hostettler. Thank you, Mr. Secretary.
    Mr. Krikorian, you are free to testify. Once again, thank 
you for your flexibility in your schedule.

 STATEMENT OF MARK KRIKORIAN, EXECUTIVE DIRECTOR OF THE CENTER 
                    FOR IMMIGRATION STUDIES

    Mr. Krikorian. Good morning. Thank you, Mr. Chairman, for 
the opportunity to speak to this Subcommittee.
    Given the short time available, I want to focus my comments 
on two questions related to interior immigration enforcement. 
First, is it really likely to yield any security benefit, and 
second, is it even possible to gain control over interior 
immigration violations.
    There are three parts to any immigration enforcement 
system, three filters to identify unwanted people for exclusion 
or deportation. First is overseas, the visa process, which 
regrettably was allowed to remain in the State Department; 
second is at the borders, and that's in the capable hands of 
the new Bureau of Customs and Border Protection; and finally, 
the enforcement of immigration laws in the interior of the 
country, now the responsibility of the Bureau of Immigration 
and Customs Enforcement.
    Since the terror attacks of 9/11, the first two parts of 
our immigration filter--visas and border control--have seen 
real improvements. Although much remains to be done, there's a 
consensus that these first two filters are important and the 
problems are beginning to be tackled.
    The third filter, however, is in much worse shape. Interior 
immigration enforcement has long been sporadic, and by the late 
1990's, all but stopped, except in a few important but narrow 
areas. The neglect of interior enforcement has helped create a 
very large illegal population, now estimated by the Census 
Bureau at more than 8 million people. And contrary to some 
claims, lax enforcement of immigration law has become a danger 
to the community by increasing America's vulnerability to 
terrorist from overseas.
    Now, there are a number of reasons of why interior 
immigration enforcement must be improved: maintaining the rule 
of law, protecting America's working poor, avoiding huge costs 
to taxpayers. But the most pressing concern today is the risk 
from foreign-born terrorists.
    In a study completed last year by the Center for 
Immigration Studies, we found that almost half of the 48 
foreign-born, al Qaeda-linked terrorists involved in terrorism 
in the United States from 1993 to 2001 had committed 
significant violations of immigration law before taking part in 
terrorism. Thus, strictly enforcing immigration laws must be a 
key component of our anti-terrorism efforts, first of all 
simply because of its ability to directly disrupt terrorist 
plots and keep terrorist organizations off balance. In many 
cases, terrorists lived, worked, opened bank accounts and 
received drivers licenses with little or no difficulty while 
they were in the United States for an extended period of time 
in violation of immigration laws.
    For example, of the 48 terrorists in the study, at least 13 
had overstayed a temporary visa at some point. In addition to 
visa overstays, we found that some terrorist had engaged in 
fraudulent marriages to American citizens, such as Fadil 
Abdelgani, who took part in the New York City landmarks bombing 
plot in 1993.
    Terrorists also provided false information on their 
applications for permanent residence, such as Sheik Omar Abdel 
Rahman, the inspiration for several terrorist plots. Also, at 
least eight terrorists held jobs for extended periods while 
living in the United States illegally before taking part in 
terrorism, including participants in the first World Trade 
Center attack, the New York landmarks bombing plot and the 
millennium plot.
    Because such a large percent of foreign-born terrorists 
violated immigration law, enforcing the law would be extremely 
helpful in disrupting and preventing terrorist attacks. Of 
course, the vast majority of those who violate immigration law 
are not terrorists.
    However, beyond the direct effect that enforcement of 
immigration law would have on terrorist cells, there are two 
other reasons that allowing a large, illegal but non-terrorist 
population to reside in the U.S. facilitates terrorism. First 
of all, it has created a large, underground industry that 
furnishes illegals with fraudulent identities and documents 
that terrorists can and have tapped into. Secondly, though, the 
existence of a huge, illegal alien population creates a general 
contempt or disregard for immigration law.
    Although the public may still want the law enforced, the 
scale of illegal immigration creates a tacit acceptance by 
local law enforcement, by policymakers, and even by immigration 
enforcement personnel themselves. In other words, with millions 
of illegal immigrants in the country, and with immigration laws 
widely flouted and seldom enforced, it is perhaps easy to 
understand why, for instance, the immigration inspector at 
Miami's airport allowed Mohammed Atta back into the United 
States in January, 2001, or why Brooklyn's subway bomber, Gazi 
Ibrahim Abu Mezer, was released from INS detention.
    Although national security, economic and fiscal arguments 
against illegal immigration are overwhelming, many people might 
still argue that there's little that can be done about the 
situation. In other words, is there really any point to 
interior enforcement of the immigration law, since people are 
going to come anyway?
    But, in fact, illegal immigration isn't nearly as 
intractable a problem as it may seem. The INS estimated a few 
years ago that more than 400,000 people leave the illegal 
population each year. Some go home voluntarily, others are 
deported, others get green cards. Of course, something like 
800,000 new illegals arrive annually, and so the total 
population continues to grow.
    But if through immigration enforcement, including interior 
enforcement, we can significantly reduce the number of new 
illegals entering the country, and increase the number of those 
going home, even if modestly, we can engineer a steady decline 
in the illegal population, allowing the problem to become 
progressively smaller over time through attrition.
    Nor is this merely supposition. A special registration 
program applies to nationals of more than two dozen countries, 
of which Pakistan has the largest illegal population in the 
U.S., estimated to have been 26,000 as of January of 2000. 
Thousands of these illegal aliens, though, have now left the 
country voluntarily without having to be deported, precisely 
because of the requirements of the special registration 
program. In other words, if they showed up at the INS, they 
would be deported; if they remained here unregistered, they 
feared arrest, so a large part of the Pakistani illegal alien 
population has either returned home or gone to other countries, 
such as Canada.
    We can expect any other increases in interior enforcement 
efforts to yield similar multiplier effects, with each illegal 
alien actually apprehended causing many more illegals to leave 
on their own.
    Let me conclude by observing that this is, in a sense, an 
extension of the ``broken windows'' policy of urban policing. 
In other words, ignoring small violations of the law leads to 
general disorder and to larger crimes. And as we saw in New 
York, for instance, cracking down on seemingly minor 
infractions, like graffiti or subway turnstile jumping not only 
apprehends individuals directly guilty of more serious crimes 
but also leads to a sense that order is being restored and that 
the law is back in control.
    The same is the case in immigration. Comprehensive interior 
enforcement, rather than a focus solely on criminal alien 
deportations and antismuggling, as important as they are, would 
lead to a spreading sense that order was being restored to the 
current state of anarchy in our immigration system, and would 
be one of the most effective means of reducing the threat from 
foreign-born terrorists domestically.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Krikorian follows:]
                  Prepared Statement of Mark Krikorian
                              introduction
    There are three parts to any immigration enforcement system, three 
filters to identify unwanted people for exclusion or deportation: 
First, the visa process overseas; second, inspections and patrols at 
the border; and, finally, enforcement of immigration laws in the 
interior of the country.
    Since the Islamist terror attacks of September 11, 2001, the first 
two parts of our immigration filter have seen improvements. Increased 
rigor in the consideration of visa applications at our consulates 
abroad, and progress toward implementing an effective entry/exit 
tracking system at the border have marked real steps forward. Although 
much remains to be done, the problems are being tackled.
    The third filter is in much worse shape. Starting in 1993, with the 
Border Patrol's Operation Hold the Line, in El Paso, and accelerated by 
the immigration bill passed by Congress in 1996, the focus of 
immigration law enforcement was the southern border. Important as this 
was, it was not matched by similar improvements in interior 
enforcement. In fact, quite the opposite. For instance, when the INS 
conducted raids during Georgia's Vidalia onion harvest in 1998, 
thousands of illegal aliens abandoned the fields to avoid arrest. 
Within hours, employers and politicians registered their displeasure, 
and the enforcement action was discontinued.
    In response, the INS developed a ``kinder, gentler'' means of 
enforcing the law, which fared no better. Rather than conduct raids on 
specific employers, Operation Vanguard sought to identify illegal 
workers at all meatpacking plants in Nebraska through audits of their 
personnel records. The INS found about 4,000 workers, out of about 
24,000, who appeared to be illegal, and scheduled interviews to 
determine their status. Three thousand of these workers turned out to 
be illegal aliens, and never showed up for their interviews, with the 
remaining 1,000 able to correct errors in their records.
    Local law enforcement officials were very pleased with the program: 
``It's an excellent program,'' said Grand Island Police Chief Kyle 
Hetrick. ``It's a positive thing. It's effective.'' Despite the initial 
promise of this new enforcement strategy, employers and politicians 
actively criticized the very idea of enforcing the law: ``It was ill-
advised for Operation Vanguard to start out in a state with such low 
employment and an already big problem with a shortage of labor,'' said 
a former Nebraska governor who had been hired to lobby for an end to 
immigration law enforcement. As a result, plans to expand the program 
to other states and other industries were scrapped and the INS official 
who developed the program was forced into early retirement.
    Neglect of interior enforcement. The INS got the message and 
developed a new interior enforcement policy that gave up on reasserting 
control over immigration and focused almost entirely on the important, 
but narrow, issues of criminal aliens and smugglers. As INS policy 
director Robert Bach told the New York Times in a 2000 story entitled 
``I.N.S. Is Looking the Other Way As Illegal Immigrants Fill Jobs'': 
``It is just the market at work, drawing people to jobs, and the INS 
has chosen to concentrate its actions on aliens who are a danger to the 
community.''
    This neglect of interior enforcement has helped to create a very 
large illegal population, now estimated by the Census Bureau at more 
than eight million. And, contrary to Prof. Bach's claims, lax 
enforcement of immigration laws has become a ``danger to the 
community'' by increasing America's vulnerability to terrorists from 
overseas.
    Fortunately, today there is reason for optimism that interior 
enforcement will be reinvigorated. When the service and enforcement 
functions of the former Immigration and Naturalization Service were 
separated, the Bush Administration further split enforcement into two 
parts, border and interior enforcement (unfortunately, the first 
filter--the visa process--was allowed to remain in the State 
Department). Though somewhat unexpected, this was a very sensible move, 
given the importance of interior enforcement and the low priority it 
had been given in the past. And unlike the academics who had held top 
positions in the prior arrangement of INS, this time the immigration 
enforcement components of the new Homeland Security Department, 
including the Bureau of Immigration and Customs Enforcement, are headed 
by people with genuine law-enforcement backgrounds.
    With this new arrangement, our nation can finally work toward 
restoring order to our anarchic immigration system, by focusing 
resources and attention on all three filters in our immigration-control 
system.
                   why improve interior enforcement?
    There are a number of reasons why interior enforcement must be 
improved. First, in a nation built on the rule of law, allowing any set 
of laws, including those pertaining to immigration, to be routinely 
flouted undermines the very foundation of our Republic. More 
specifically, there are significant costs to the U.S. economy and 
American taxpayers from allowing millions of people to live in the 
United States illegally.
    Finally, there is the risk from foreign-born terrorists. In a study 
completed last year by the Center for Immigration Studies, we found 
that 22 of 48 foreign-born al Qaeda-linked terrorists who were involved 
in terrorism in the United States between 1993 and 2001 had committed 
significant violations of immigration laws prior to taking part in 
terrorism. Thus, strictly enforcing immigration laws must be a key 
component of our anti-terrorism efforts.
    In many cases terrorists lived, worked, opened bank accounts, and 
received driver's licenses with little or no difficulty. They operated 
for extended periods within the United States while they were in 
violation of immigration laws. For example, of the 48 terrorists in the 
study, at least 13 had overstayed a temporary visa at some point.
    In addition to overstaying visas, we found that terrorists have 
violated immigration laws in a number of other ways. Some terrorists 
have engaged in fraudulent marriages to American citizens, such as 
Fadil Abdelgani, who took part in the plot to bomb New York City 
landmarks in 1993, and Khalid Abu al Dahab, who raised money and helped 
recruit new members for al Qaeda from within the United States. 
Terrorists also violated immigration laws by providing false 
information on their applications for permanent residence, such as 
Sheik Omar Abdel Rahman, who inspired several terrorist plots. Still 
other terrorists have violated the law by working illegally in the 
United States; at least eight terrorists held jobs for extended periods 
while living in the country illegally before taking part in terrorism, 
including those involved in the 1993 World Trade Center attack, the 
plot to bomb New York landmarks, and the Millennium plot. Because such 
a large percentage of foreign-born terrorists violated immigration law, 
enforcing the law would be extremely helpful in disrupting and 
preventing terrorist attacks.
    Tolerating illegal immigration facilitates terrorism. Of course, 
vast majority of aliens who violate immigration laws are not 
terrorists. However, allowing a large illegal population to reside in 
the United States facilitates terrorism for two reasons. First, it has 
created a large underground industry that furnishes illegals with 
fraudulent identities and documents that terrorists can (and have) 
tapped into. Several of the 9/11 terrorists were assisted in getting 
their Virginia driver's licenses from someone who specialized in 
helping run-of-the-mill illegal aliens obtain them.
    Second, the existence of a huge illegal population creates a 
general contempt or disregard for immigration law. Although the general 
public may still want the law enforced, the scale of illegal 
immigration creates a tacit acceptance by law enforcement, 
policymakers, and even immigration-enforcement personnel themselves. 
With millions of illegal immigrants already in the country, and with 
immigration laws widely flouted, it is perhaps easy to understand why 
the immigration inspector at Miami's airport allowed Mohammed Atta back 
into the country in January 2001 even though he had overstayed his visa 
on his last visit and had abandoned his application to change status to 
vocational student by leaving the country.
    The release from INS detention of 1993 World Trade Center Bomber 
Ahmad Ajaj or Brooklyn subway bomber Gazi Ibrahim Abu Mezer (or, more 
recently, sniper John Lee Malvo) also does not seem so outrageous when 
one considers that immigration law is routinely violated and millions 
of people are allowed to live in the country illegally. Tolerating mass 
illegal immigration is by no means the only factor increasing the 
chance that terrorists will successfully enter and remain in the 
country, but by not enforcing immigration law we have made life easier 
for the large number of terrorists who have broken immigration laws.
    Other reasons for interior enforcement. Of course, combating terror 
is not the only reason to enforce the immigration law. We know from a 
variety of sources that illegal aliens are overwhelming unskilled, with 
more than three-fourths lacking even a high school education. Each year 
several hundred thousand illegal aliens without a high school education 
settle in the United States. Allowing in so many unskilled workers 
creates very significant economic problems. The economic goal of a 
modern society such as ours is to create a large middle class through 
high-wage, capital-intensive jobs exhibiting growing labor productivity 
and aiming toward a flatter distribution of income. Mass unskilled 
immigration, a very large share of which is illegal, subverts these 
goals. In its 1997 report, the National Research Council concluded that 
by increasing the supply of unskilled workers, immigration was 
responsible for close to half the decline in relative wages for high 
school dropouts from 1980 to 1994, translating into lost wages for 
those dropouts amounting to about 5 percent of their incomes.
    From the point of view of employers, this seems like a desirable 
state of affairs, since lower labor costs mean higher profits, and for 
consumers it should mean lower prices as well. Of course, for the 10 
percent of our workers who lack a high school education and who are 
already the lowest-paid workers, this reduction is quite harmful. But, 
putting aside the impact on the working poor, the long-term 
consequences of illegal immigration for the economy are also harmful.
    There is strong evidence that in industries as diverse as 
construction, garment manufacturing, and agriculture an increasing 
reliance on unskilled illegal-alien labor is slowing productivity gains 
and causing the United States to fall behind its international 
competitors. At least 80 percent of illegal aliens lack a high-school 
education and this unskilled immigration acts as a subsidy by 
artificially holding down labor costs by increasing the supply of 
labor. Businesses tend to want subsidies and often grow dependent on 
them. But like any subsidy, illegal immigration prevents innovation and 
causes the industry in question to lose its competitive edge in the 
long term. Reducing illegal immigration and allowing wages to rise 
naturally would not only be good for the working poor, it would make 
for a more productive economy. Employers, in response to upward 
pressure on wages, would adopt more productive methods, such as dried-
on-the-vine raisin production or greater use of pre-fabricated material 
in construction. We can reduce illegal immigration secure in the 
knowledge that it will not spark inflation because unskilled workers 
account for such a tiny fraction of total economic output. High school 
dropouts account for less than 4 percent of total output in the United 
States, so even if wages rose substantially for these workers, the 
effect on prices would be very small.
    Illegal immigration is also a problem for public coffers. In 
addition to reducing wages for the working poor and hindering 
productivity gains, there is another problem with illegal immigration--
it imposes significant fiscal costs, an extremely important concern at 
a time of huge budget shortfalls in almost every state. As a practical 
matter, the middle and upper classes in the United States pay almost 
all of the taxes. The poor--immigrant or native--generally consume 
significantly more in public services than they pay in taxes. Because 
illegal aliens are overwhelming unskilled, this results in their having 
much lower incomes and tax payments. Moreover, while illegal aliens are 
not supposed to use most welfare programs, in fact they often make use 
of them anyway. Even if the immigrant himself is not eligible because 
of legal status, immigrant families can still receive benefits on 
behalf of their U.S.-born children, whose welfare eligibility is the 
same as any other native-born American.
    In research done by the Center for Immigration Studies, we 
estimated that of households headed by illegal aliens from Mexico (the 
largest component of the illegal population), 31 percent used at least 
one major welfare program. This is lower than the 37 percent estimated 
for households headed by legal Mexican immigrants. But it is much 
higher than the 15 percent estimated for natives. Significant use of 
public services coupled with much lower tax payments means that illegal 
immigrants almost certainly create a net fiscal drain.
    In 1997 the National Academy of Sciences (NAS) estimated that 
immigrant households consume between $11 billion and $20 billion more 
in public services than they pay in taxes each year. This net fiscal 
drain (taxes paid minus services used) is almost entirely the result of 
unskilled immigrants. The NAS estimated that an immigrant with less 
than a high school education imposes a net fiscal drain of $89,000 on 
public coffers during his lifetime. This burden on taxpayers would, of 
course, become even worse if these immigrants were legalized, because 
they would remain largely poor, given their limited education levels, 
but they would become directly eligible for welfare programs. From the 
point of view of taxpayers, reducing illegal immigration by enforcing 
the law would almost certainly be desirable.
                 making interior enforcement effective
    What steps are necessary to enable the new Bureau of Immigration 
and Customs Enforcement to play its vital part in immigration control?
    Tracking System for Temporary Visa Holders. There is a longstanding 
problem that the federal government often has no idea whether foreign 
visitors have left when their temporary visas expire. In addition, it 
often has no idea where foreign citizens live while their visas are 
still valid. A number of terrorists have been tourists and business 
travelers, and it would be very difficult to track such individuals 
within the United States. Even in the current environment, it is 
unrealistic to expect all foreign visitors to submit their passports 
every time they check into a hotel and to expect hotels to report that 
information. Currently, foreign travelers are required to write down 
their destination upon entering the United States, but no effort is 
made to verify the information; in fact, two of the 9/11 jihadists 
listed ``Marriott Hotel, New York'' as their destination.
    The Special Registration system in place for visitors from 
selected, mostly Middle Eastern, countries is a valuable first step 
toward a comprehensive entry/exit tracking system, but it would 
probably not be feasible to apply it in its current form to the 
millions of alien visitors from all countries. But it would be possible 
to keep such close tabs on all foreign citizens residing here for 
extended periods of time who are affiliated with an American 
institution responsible for their whereabouts. Such a system makes 
sense because many of these long-term visitors (here from one to six 
years, or more) reside here for a long time in a legal status, whereas 
short-term visitors are less likely to have the time to hatch 
sophisticated plots before their visas expire. Although short-term 
tourists and business travelers, who are not attached to any American 
institution, make up the majority of non-immigrants, the number of 
long-term visa holders requiring oversight is still quite large. In 
2001, there were more than 1 million foreign students and exchange 
visitors admitted (including their spouses and young children), as well 
as almost 1.4 million long-term foreign workers (including family), 
each more than double the number admitted just five years previously. 
Tracking these individuals through their American institutions is both 
desirable and possible. If they leave their schools, jobs, or otherwise 
violate the terms of their admission, we would know immediately, and 
then we could send out an investigator while the trail was still warm.
    Tracking foreign students--and others. One of the largest single 
categories of long-term temporary visitors is foreign students 
(admitted on F1 and M1 visas). A number of terrorists originally 
entered on student visas, including Eyad Ismoil, a conspirator in the 
1993 World Trade Center bombing, and 9/11 hijacker Hani Hanjour, and 
both were in the country illegally when they committed their crimes. 
Ismoil dropped out after three semesters and remained in the United 
States illegally, while Hanjour never even attended class. Both Khalid 
Abu al Dahab and Wadih el Hage originally came to the United States on 
student visas, later married Americans, and became naturalized 
citizens.
    The 1996 immigration law mandated that the INS develop a 
computerized tracking system for foreign students to replace the failed 
paper-based system. Unfortunately, that system did not moved beyond the 
pilot stage because of scorched-earth opposition from universities and 
colleges. Institutions opposed it, and continue to oppose the current 
Student Exchange and Visitor Information System (SEVIS), fearing the 
extra administrative burden, but mainly because they do not like the 
idea of treating foreign students differently from their American 
counterparts. But given the very real threats we face, tracking 
students makes perfect sense. Ideally such a system would provide the 
INS with real-time information verifying a student's enrollment and 
immediately notify the INS if the student drops out or otherwise is not 
honoring the terms of his visa. The border security bill signed by the 
president last May has accelerated the development of a workable 
student-tracking system, but as this subcommittee heard last week, 
there is still a long way to go.
    Despite the current difficulties faced by SEVIS, this strategy 
should not be limited only to foreign students. There are an additional 
million temporary workers, trainees, and intra-company transferees who 
can and should be included in such a system. Expanding the new tracking 
system to cover all long-term non-immigrants is necessary to ensure 
that the system is as comprehensive as possible. INS enforcement could 
then follow up with the sponsoring employer or other institution as 
soon as it learns that the alien violated the terms of the visa.
    Names of visa violators should be in the national crime database. 
In January of 2002, the INS announced that it was going to add to the 
FBI's National Crime Information Center (NCIC) database the names of 
more than 300,000 illegal aliens who have been ordered deported, but 
whose departure the INS cannot verify. This is certainly a good start, 
but once a well-functioning entry/exit system is in place, the names, 
photos, and fingerprints of all those who overstay or otherwise violate 
the terms of their admission to the U.S. should be added to the 
criminal database. In that way, if they are ever arrested for a crime 
or even pulled over in a traffic stop they can be held by local police 
and then turned over to the BICE agents. This could become a key 
component of interior enforcement. With 3 to 4 million visa overstayers 
living in the United States, there is no question that tens of 
thousands of them have some encounter with the authorities each year. 
Traffic stops and arrests are a significant opportunity to apprehend 
those in the country illegally, and we should take full advantage of 
them.
    While adding visa violators to the criminal database would help 
reduce illegal immigration, one may still wonder if it would ever be 
useful against terrorists. In fact, two of the 9/11 hijackers were 
pulled over in traffic stops in months preceding the attacks. In the 
spring of 2001, the plot's ringleader, Mohammed Atta, received a 
traffic ticket in Broward County, Florida, for driving without a 
license. He had, by this time, overstayed his visa on his previous 
visit to the United States between June of 2000 and January of 2001, 
though the INS at Miami International Airport allowed him back into the 
country. Had a system of carefully tracking overstays and placing their 
names in the criminal database been in place, then we might have been 
able to apprehend Atta and perhaps avert the 9/11 attacks. Although he 
had not overstayed his visa, Ziad Samir Jarrah, who was on board United 
Airlines Flight 93 that crashed in Pennsylvania on 9/11, was issued a 
speeding ticket on September 9 in Maryland for driving 95 miles an hour 
in a 60-mile-per-hour zone. Thus, even the most sophisticated 
terrorists in American history seem to have run afoul of the law prior 
to carrying out their plans.
    For BICE to quickly take custody of visa violators detained by 
police, it would need many more agents assigned to interior enforcement 
and much more detention space. By adding the names of visa overstays to 
the criminal database, the INS would in effect enlist the help of 
thousands of local law enforcement officers.
    Enforcing the ban on hiring illegal aliens. The centerpiece of any 
new interior enforcement strategy has to be a resumption in enforcement 
of the ban on hiring illegal aliens. While worksite enforcement, as it 
is commonly called, may not seem to be important to national security 
at first glance, it is, in fact, vital to reducing the terrorist 
threat. Gaining control of the border between crossing points (now the 
job of the Homeland Security Department's Bureau of Customs and Border 
Protection) is only possible if BICE is able to dramatically reduce the 
number of illegal job seekers trying to sneak into the United States by 
making it extremely difficult for them to find work.
    As already indicated, the estimated 8 million illegals now living 
in the country have also created a vast market and infrastructure for 
fraudulent documents. The existence of widespread fraud can only make 
it easier for terrorists to operate in the United States. In addition, 
it would be much harder for terrorists who overstay their visas to 
blend into normal life if finding a job is made more difficult.At least 
eight of the terrorists in our study worked in the United States 
illegally before being arrested. Of course, terrorists could still come 
with large sums of cash and try to live undetected, but doing so would 
be much harder if getting a job is much more difficult.
    Worksite enforcement must be made effective. There are two steps 
that are needed to make worksite enforcement effective. First, a 
national computerized system that allows employers to verify the work-
eligibility of new hires needs to be implemented. Employers would 
submit the name, date of birth, Social Security number (SSN), or alien 
registration number to the INS for each new hire. This information is 
already collected for I-9 forms, but is not used for enforcement. After 
an instant check of its database, the employers would then receive an 
authorization number indicating that the person is allowed to work in 
the United States. The authorization number would provide the employer 
an ironclad defense against the charge that they knowingly hired an 
illegal alien. Tests of such systems have generally been well received 
by employers.
    Document fraud, of course, is widespread, but a computerized system 
would be a key tool in uncovering it. For example, a valid SSN that is 
linked to a different name and submitted to immigration authorities, or 
a SSN and name that show up among numerous employers across the 
country, would both be indications that a worker is trying to skirt the 
law. BICE could develop procedures to identify potential problems of 
this kind. When a potential problem is identified, special agents would 
then go out to the employer and examine all the paperwork for the 
employee, perhaps conducting an interview with the worker and determine 
the source of the problem.
    Dramatically increase the number of investigators. Investigators 
from BICE are charged with such tasks as worksite enforcement, anti-
smuggling efforts, and combating document fraud. Before the 
reorganization, there were only about 2,000 agents assigned to interior 
enforcement for the entire country. This number must be increased 
dramatically. Also, there were only the full-time equivalent of 300 INS 
inspectors devoted to worksite enforcement year-round, whose job it is 
to enforce the ban on hiring the five or six million illegal immigrants 
in the workforce. If the number of investigators was increased to the 
levels necessary, they could begin to visit employers identified by the 
verification system as having a potential problem, and additionally 
could randomly visit worksites to see that employers were filing the 
paperwork for each worker as required by law. Those employers found to 
be knowingly hiring illegals would be made to pay stiff fines.
    It is not just in the area of worksite enforcement that additional 
investigators could be put to work. The system of tracking students and 
perhaps other visitors requires that there be enough agents to locate 
those identified by the tracking system as having violated their visas. 
If we create a tracking system, for example, but there are no agents to 
investigate those who stop working or attending class, then a tracking 
system is almost meaningless. Failure to develop such a system means 
that millions of illegal immigrants will continue to work and live in 
the United States facing little or no penalty. Not only does this make 
a mockery of the rule of law, harm the working poor, and impose 
significant costs on taxpayers, it also exposes the country to 
significant security risks.
    Employment verification as a proxy for comprehensive registration. 
Most of the recommendations outlined above have dealt with temporary 
visa holders or efforts to reduce illegal immigration. More effective 
monitoring is also needed of permanent residents. A number of militant 
Islamic terrorists have been legal immigrants, including Sheik Omar 
Abdel Rahman, Siddig Ibrahim Siddig Ali (ringleader of a plot to bomb 
New York landmarks) and Mahmud Abouhalima, a leader of the 1993 attack 
on the World Trade Center.
    Until the early 1980s all non-citizens living in the United States 
were required to register annually their whereabouts with the INS. This 
practice should probably not be revived in that form. Potential 
terrorists cannot be expected to dutifully send in post cards with 
their addresses. However, the employment verification system outlined 
above could be a very effective tool in locating non-citizen legal 
immigrants. This is especially important when a person is placed on the 
watch list after he has entered the country. At present, there is often 
no way for immigration authorities to know where that individual lives; 
but the employment verification process would provide them with the 
last known employer for green card holders who work. Thus, if it became 
necessary to arrest, or undertake surveillance of a non-citizen, his 
last known employer would be a place to start. The verification system 
would, in effect, be a means of alien registration, at least for those 
resident aliens who work.
    Prevent illegals from putting down roots. One change that seems 
obvious is to expand the concept of employer sanctions to other aspects 
of life. In other words, we should require verification of legal status 
not only when a person starts a new job but also when a person applies 
for a driver's license, and a bank account, and a mortgage, and college 
admission. Bank accounts are especially important because they make it 
easier for people who work illegally in the United States to cash 
paychecks and transfer money abroad. Thus, by permitting illegal aliens 
to open bank accounts we make it easier to be an illegal alien, which 
in turn can only increase illegal immigration. This is the unintended 
consequence of the U.S. Treasury Department's explicit policy of giving 
a green light to banks to accept Mexico's consular registration card, a 
document useful within the United States only to illegal aliens.
    Another key is to prevent illegals from getting driver's licenses. 
A number of the 9/11 terrorists were able to get licenses and open bank 
accounts with little difficulty. Virginia, which issued eight drivers 
licenses to 9/11 terrorists, only required that a third party attest to 
the fact that the license applicant is a state resident. This is a 
clear invitation for illegal aliens and terrorists to obtain driver's 
licenses.
    All states must require birth certificates and other supporting 
documents for licenses. Unfortunately, a number of states do not 
carefully verify identity or eligibility for a license, and in fact 
some states now explicitly allow illegal aliens to get licenses. Not 
only do licenses make it easier to open bank accounts, licenses are 
also helpful when accessing government documents, looking for a job, 
renting motor vehicles, and of course boarding commercial airliners. If 
we are serious about reducing illegal immigration and protecting the 
country from terrorists, then doing a great deal more to prevent 
illegals from opening bank accounts and obtaining drivers licenses will 
have to be part of our efforts.
    Amnesties for illegal aliens have helped, not hindered, terrorists. 
The existence of a large illegal population clearly creates a host of 
problems for the United States. Instead of enforcing the law, some have 
suggested giving green cards to the illegals, thereby defining away the 
illegal population and simplifying the work of interior enforcement. 
Superficially appealing as this may be, it would not solve the problem 
of future illegal immigration; after the last amnesty in 1986, the 2.7 
million illegals who were given green cards were entirely replaced by 
new illegal aliens within less than 10 years. While the events of 9/11 
significantly reduced political support for what had been growing 
momentum to grant amnesty to Mexican and perhaps other illegals, the 
idea continues to be suggested; some have even argued after 9/11 that 
granting amnesty would be helpful to national security because it would 
allow law enforcement to know who is in the country. For this reason 
some amnesty advocates have even taken to calling it a ``registration'' 
of illegal aliens. However, in the past, amnesties have helped 
terrorists, and not impeded them in any way.
    Mahmud ``The Red'' Abouhalima, an Egyptian illegal alien working as 
a cab driver in New York, received amnesty under the 1986 Immigration 
and Reform and Control Act, falsely claiming to be an agricultural 
worker. Given limited resources, it was not possible to investigate or 
even verify the stories of the millions who applied for amnesty. As a 
result, the vast majority who applied for the amnesty were approved, 
including huge numbers of fraudulent applicants. Issuing Mahmud 
Abouhalima a green card facilitated his terrorism because he could then 
work at any job he wished and was able to travel to and from the United 
States freely. In fact, according the October 4, 1993, issue of Time 
magazine, it was only after he received his green card in 1990 that he 
made several trips to Pakistan, where he received combat training. 
Thus, the 1986 amnesty is what made his training by al Qaeda possible. 
Had Abouhalima not been given permanent residency, he would not have 
been able to travel abroad and become a trained terrorist.
    The case of Mohammed Salameh, who rented the truck used in the 1993 
World Trade Center bombing, shows why an amnesty will not hinder 
terrorists. Salameh's application for amnesty was denied because he was 
not as adept at making fraudulent claims as was Abouhalima. The INS was 
able to do its job in his case and rejected his application on its 
face. However, because there was no mechanism in place to force people 
who are denied amnesty to leave the country, he continued to live and 
work in the United States illegally and ultimately take part in 
terrorism. Thus, in the past terrorists who applied for amnesty either 
received it, making their operations easier, or, when turned down, 
simply continued to engage in terrorism unhindered.
    In sum, the last amnesty only helped terrorists and did nothing to 
hinder those involved in the first World Trade Center bombing. If we 
are to have an amnesty, then at the very least we first need to devote 
vastly more resources to interior enforcement, including detention 
space and INS agents assigned to investigate applications and to detain 
and remove those found ineligible.
                               conclusion
    Although the national security, economic, and fiscal arguments 
against illegal immigration are overwhelming, many people still might 
argue that there is little that can be done about this situation. In 
fact, illegal immigration isn't nearly as intractable a problem as it 
may seem. The INS estimated several years ago that each year roughly 
150,000 illegal aliens leave the country on their own, another 200,000 
or so get green cards as part of the normal ``legal'' immigration 
process, 50,000 illegals are deported, and about 20,000 die. In sum, at 
least 400,000 people leave the illegal-alien population each year.
    Of course, something like 800,000 new illegals arrive annually, and 
thus the total illegal population continues to grow. But the numbers 
leaving the illegal population are still huge, and we can use this fact 
to our advantage. If we significantly reduce the number of new illegal 
aliens entering the country and increase the number who go home, even 
if only modestly, we can engineer an annual decline in the illegal-
alien population, allowing the problem to become progressively smaller 
over time through attrition.
    Nor is this mere supposition. The special-registration process 
applies to nationals of more than two dozen countries, among which 
Pakistan has the largest illegal-alien population in the U.S., 
estimated to have been 26,000 in January 2000. Thousands of those 
illegal aliens have left the country voluntarily, without having to be 
deported, because of the special registration requirements. We can 
expect that any other increases in interior enforcement efforts would 
yield similar multiplier effects, with each illegal alien actually 
apprehended causing many more illegals to leave on their own.
    Strict enforcement of the law overseas, at the border, and in the 
interior of the United States can help restore order to our anarchic 
immigration system and is one of the most effective means we have of 
reducing the threat from foreign-born terrorists. Failure to develop a 
vigorous interior enforcement system will result in the continual 
increase of the illegal alien population, imposing significant costs on 
unskilled American workers, taxpayers, and, in the long-run, American 
business. By enforcing immigration laws we can improve the lives of the 
working poor, save taxpayers money, and help protect the safety of our 
homes and families.

    Mr. Hostettler. Thank you, Mr. Krikorian.
    Mr. Danahey, you are free to testify. Thank you for your 
flexibility once again in your schedule.

 STATEMENT OF TIMOTHY J. DANAHEY, NATIONAL PRESIDENT, FEDERAL 
              LAW ENFORCEMENT OFFICERS ASSOCIATION

    Mr. Danahey. Good morning, Mr. Chairman, and distinguished 
Members of the Subcommittee. I am honored to testify on such an 
important and vital subject.
    The Federal Law Enforcement Officers Association, FLEOA, is 
a voluntary, nonpartisan professional organization. FLEOA 
currently represents over 19,000 Federal law enforcement 
officers.
    As a national officer of FLEOA, I represent many of the 
outstanding men and women who enforce our Nation's immigration 
laws. These men and women risk their lives every day in an 
environment that is increasingly violent.
    To make this mission more efficient, while restoring public 
confidence in immigration enforcement, FLEOA would like to see 
the following issues, matters of concerns and problems 
addressed in the creation of the Department of Homeland 
Security.
    General arrest authority. Under the former INS, a key 
provision of the Immigration Act of 1990 has yet to be 
implemented. The authority granting INS law enforcement 
officers general arrest authority has never been implemented. 
The Department of Homeland Security, and specifically ICE, 
should implement the regulations as stated in law to give 
agents/officers general arrest authority. It is our 
understanding that U.S. Customs agents already possess this.
    Training. Presently, the former INS special agents, 1811s, 
have been hired from positions such as immigration inspectors, 
deportation officers, and Border Patrol agents. FLEOA 
recommends that all special agents who have not received the 
investigations training, such as the one offered at the Federal 
Law Enforcement Training Center, FLETC, and the Criminal 
Investigator Training Program, CITP, be given transitional 
training courses so that they may be on par with U.S. Customs 
special agents.
    Cross-training of special agents previously employed by the 
former INS and U.S. Customs Service should begin immediately. 
We feel that cross-training of agents is absolutely essential. 
We note there is no substitute for personnel resources.
    We recommend a specific standardized training program be 
developed and implemented relating to each job classification 
within ICE. If individuals transfer within job classifications 
within the Department of Homeland Security, we recommend that 
they receive training in a transitional program designed to 
accommodate each classification, such as inspectors to 
deportation, or deportation to special agent.
    Equal pay. As noted in the current Homeland Security 
statute, pay parity is a major concern. A journeyman INS 
special agent is paid a full grade lower than a U.S. Customs 
special agent. The problems associated with this are self-
evident. We recommend an immediate across-the-bard increase for 
all INS special agents, as well as all agents currently 
assigned the 1811 job classification within the DHS. With less 
than 2,000 special agents nationwide, the cost is minimal.
    Interior enforcement. Currently, the number of aliens 
illegally in the United States is estimated at about 8.5 
million, or 28 percent of the foreign-born population in the 
United States.
    As the former INS investigations and detention and removal 
component transition to ICE, we note the concerns raised in a 
2002 GAO report entitled, ``Immigration Enforcement, Challenges 
to Implementing the INS Interior Enforcement Strategy'', remain 
the same today. In this report, the GAO noted that having an 
effective interior enforcement strategy is an essential 
complement to having an effective border strategy. The GAO 
stated that the former INS faced numerous and daunting 
enforcement issues, such as the potential pool of removable 
criminal aliens and fugitives that number in the hundreds of 
thousands.
    Using the events of September 11th as a barometer, we can 
clearly see what the lack of commitment to the base immigration 
mission yields.
    If they have not already done so, we recommend that ICE 
immediately create a planning and policy formulation office. 
The planning and policy functions should succinctly and 
articulately state the ICE mission and/or missions. This stated 
mission should chain-drive the budget formulation, rather than 
the budget process driving the stated mission, as was the case 
with the former INS.
    ICE needs to address problems concerning interior capacity 
issues in relation to the National Security Entry/Exit 
Registration System, NSEERS, Student and Exchange Visitor 
Information System, SEVIS, and other law enforcement agencies 
referrals. Budget formulation, budget execution, resource 
deployment, personnel staffing, position management and 
position classification must address the lack of special 
agents, deportation officers, and other clerical staff actually 
in place to address leads from NSEERS and SEVIS, as well as 
from sources including Federal, State and local law enforcement 
agencies. We caution that, as in the past, these resources have 
not been developed at the expense of anti-smuggling, fraud, and 
other complex caseload reasons.
    In regard to the interior immigration law enforcement 
mission, we recommend that a commitment be made to deal with 
complex, protracted criminal cases,such as alien smuggling/
human trafficking cases, immigration fraud cases, and NSEERS 
and SEVIS related tracking investigations.
    We recommend that these investigations be conducted by the 
special agent 1811 component of ICE. Secondly, the 
administrative functions of interior enforcement such as 
administrative jail cases, the Institutional Hearing Program, 
and other law enforcement referrals, should be given the same 
commitment.
    To see that criminal cases generated from ICE special 
agents are given consideration in the ever-competitive world of 
Federal law enforcement, we recommend that an Assistant United 
States Attorney in each United States Attorney Office be 
dedicated to immigration enforcement similar to those dedicated 
for asset forfeiture matters.
    To accomplish its immigration enforcement mission, ICE 
would need to increase staffing levels by 100 percent in both 
the investigations program and the detention and removal 
program. An increase in special agents from its current level 
of approximately 2,000 to 4,000 would cost approximately 
$234,078,000, according to modular costs. An increase in 
deportation officers to 2,000 officers would be needed to 
handle the current immigration enforcement workload, and again, 
according to modular costs, would cost approximately 
$241,054,000.
    Alien smuggling. The GAO noted in a 2000 report entitled, 
``Alien Smuggling: Management and Operational Improvements 
Needed to Address Growing Problem'' that without improvements 
in its investigations and intelligence programs, INS' ability 
to disrupt and deter increasingly sophisticated and organized 
alien smugglers and dismantle their organizations will continue 
to be hampered.
    To assist the alien smuggling mission, ICE needs to think 
with some breadth and depth of vision. No longer can we think 
from a narrow, blinded point of view. We recommend the 
consolidation of the overseas operations at the Border 
Transportation Security directorate level, since they involve 
elements of the ICE and the CBP mission. These functions should 
include oversight of visa issuance at overseas posts and the 
headquarters coordination of all alien smuggling 
investigations.
    In a 2002 report entitled, ``Immigration Benefit Fraud, 
Focused Approach Needed to Address Problems'', the GAO noted 
that the former INS did not know the extent of the immigration 
benefit fraud problem. However, reports and statements from 
former INS officials indicated that the problem is pervasive 
and significant and will increase as smugglers and other 
criminal enterprises use fraud as another means of bringing 
illegal aliens, including criminal aliens, terrorist and 
foreign intelligence agents into the United States.
    In 2002, FLEOA testified that it was our view that the INS 
has lost the confidence of the American people. Noting that 
following a GAO report in 1991, entitled ``Immigration 
Management: Strong Leadership and Management Reforms Needed to 
Address Serious Problems,'' the INS undertook administrative 
reform in 1994. Again in 1997, the GAO issued a report 
entitled, ``Immigration Management, Follow-up on Selected 
Problems.'' This again prompted INS reform in 1998. Since the 
GAO report in 1991, there has been a succession of negative and 
critical reports in regard to the former INS by numerous other 
governmental and private entities.
    Mr. Hostettler. Mr. Danahey, could you summarize?
    Mr. Danahey. Yes, sir.
    The immigration issue is based upon law and should not be 
dictated by the politics of the moment. On behalf of the 
Federal Law Enforcement Officers Association, and the many 
dedicated men and women who risk their lives enforcing 
immigration laws, I appreciate your time and attention.
    [The prepared statement of Mr. Danahey follows:]
                 Prepared Statement of Timothy Danahey
    Good afternoon, Mr. Chairman and distinguished Members of the 
Subcommittee. I am honored to testify on such an important and vital 
subject. I respectfully request my written submission be admitted to 
the record.
    The Federal Law Enforcement Officers Association--FLEOA, is a 
voluntary, non-partisan professional association. FLEOA currently 
represents over 19,000 federal law enforcement officers and is the 
largest association for federal officers of its kind. Several years 
ago, FLEOA joined with all of the major state and local national police 
associations to form the Law Enforcement Steering Committee. The Law 
Enforcement Steering Committee includes the following prominent and 
important organizations: Fraternal Order of Police, National Troopers 
Coalition, Major Cities Chiefs of Police, Police Executive Research 
Forum, the National Association of Police Organizations, National 
Organization of Blacks in Law Enforcement, the International 
Brotherhood of Police Organizations and the Police Foundation. In 
becoming a part of this group, federal agents were able to add our 
voices to those of the over half a million state and local officers 
already commenting on the issues that our Association considers to be 
of greatest importance. I tell you today, as I have told our membership 
and the Law Enforcement Steering Committee for the past several years 
that the continuing revitalization of immigration law enforcement is 
one of our highest priorities. A year ago FLEOA testified before this 
committee for the seventh time imploring this committee to recommend a 
legislative restructuring of the Immigration and Naturalization Service 
(INS). FLEOA believes that the creation of the Department of Homeland 
Security (DHS) and the abolishment of the INS is exactly what were 
needed.
    It was FLEOA's belief that the revitalization of our nation's 
immigration law enforcement will occur through passage and complete 
implementation of the Homeland Security Act of 2002. We appreciated the 
committee seeking our input on concerns we wish to discuss in the 
spirit of assisting you in making the Department more efficient and 
effective.
    FLEOA believes the merger of several Federal law enforcement 
agencies into this Department was a vital step towards correcting many 
of the obstacles that have arisen over the years within Federal law 
enforcement. We, America's Federal Agents, pledge to work with you to 
fulfill the expectations of the public.
    I want to take a moment to comment on the creation of the 
Department of Homeland Security and, specifically, the creation of the 
Bureau of Immigration and Customs Enforcement (ICE). Upon hearing of 
the Administration's intent to abolish the INS, I was asked by a 
colleague my thoughts on this drastic reform. I responded by relaying a 
popular Churchill story in which a man received a telegram saying his 
mother-in-law had died and asked for instructions. The man wired back: 
``Embalm, cremate, bury at sea. Take no chances.''
    As a National Officer of FLEOA, I represent many of the outstanding 
men and women who enforce our Nation's Immigration Laws. These men and 
women risk their lives every day in an environment that is increasingly 
violent. To make this mission more efficient while restoring the public 
confidence in immigration enforcement, FLEOA would like to see the 
following issues, matters of concerns and problems addressed in the 
creation of Department of Homeland Security.
                        general arrest authority
    Under the former INS, a key provision of the Immigration Act of 
1990 has yet to be implemented. The authority granting INS law 
enforcement officers general arrest authority has never been 
implemented. The Department of Homeland Security and specifically, ICE 
should implement the regulations (as stated in law) to give agents/
officers general arrest authority. It is our understanding that 
currently US Customs agents have it. FLEOA recommends that ICE begin 
the process to implement general arrest authority provisions and extend 
protection against legal liability to all current ICE Officers.
                                training
    Professionalism must be enhanced in the new department of Homeland 
Security. One means to accomplish this would be through enhanced 
training of all Special Agents (1811s), Deportation Officers, and 
analysts. We recommend, strongly, that ICE adopt the USDA Graduate 
School's program for the training of government analysts in legal, 
technical, and management areas.
    Presently, the former INS Special Agents (1811s) have been hired 
from positions such as Immigration Inspectors, Deportation Officers and 
Border Patrol Agents. FLEOA recommends that all Special Agents who have 
not received the investigations training, such as the one offered at 
the Federal Law Enforcement Training Center (FLETC), the Criminal 
Investigator Training Program (CITP), be given a transitional training 
course so that they may be on par with US Customs Special Agents. We 
can no longer rely on the past INS model of On-The-Job (OJT) training, 
which is beneficial only as it complements CITP training.
    Cross training of Special Agents previously employed by the former 
INS and the US Customs Service should begin immediately. While we feel 
that cross training of agents is absolutely essential, we note that 
there is no substitute for personnel resources. For too long, we have 
attempted to accomplish immigration law enforcement without admitting 
the need for the requisite personnel enhancements. Training for agents, 
supervisors and upper management should be conducted in an academy type 
setting, away from day-to-day distractions.
    We recommend a specific standardized training program be developed 
and implemented relating to each job classification within ICE. If 
individuals transfer within job classifications within The Department 
of Homeland Security we recommend that they receive training in a 
transitional program designed to accommodate each classification such 
as Inspections to Deportation or Deportation to Special Agent. Under 
the former INS, an individual who transferred from a Deportation 
Officer to the Special Agent position received no job specific training 
after they transferred.
    We recommend that all law enforcement personnel hired in the future 
within the Department of Homeland Security undergo a standardized 
training program while at the academy. Upon completion of this training 
they should receive advance training specific to each job 
classification.
    It is reasonable to note that although many former INS Special 
Agents currently lack the CITP certificate, the training they did 
receive in the Border Patrol Academy and the Immigration Officers 
Academy as well as the intensive Spanish language immersion program, 
was as difficult and demanding as any currently offered at the current 
Federal Law Enforcement Academy training.
                               equal pay
    As noted in the current Homeland Security statue, pay parity is a 
major concern. Currently, a journeyman INS Special Agent is paid a full 
grade lower than a US Customs Special Agent. The problems associated 
with this are self-evident. We recommend an immediate across the board 
increase for all INS Special Agents as well as all agents currently 
assigned the 1811 job classification within the DHS. With less than 
2000 Special Agents nationwide, the cost is minimal.
    FLEOA has advocated for many years legislation addressing the pay 
disparity existing between the public and private sectors. We have 
brought to your attention the problems this poses for effective Federal 
law enforcement. We would like to take time now to remind this body of 
the need to pass the current House Resolution H.R. 466, which will 
amend the Federal Law Enforcement Pay Reform Act of 1990. This Bill 
will do two things: adjust the locality pay percentages for America's 
federal agents and allow mid to high-level supervisors to earn up to 
25% of their salaries in overtime. Additionally, this needed 
legislation will enable Federal law enforcement agencies to recruit and 
retain the best and brightest candidates. Today, there is very little 
incentive to progress to upper management positions.
                          interior enforcement
    Currently the number of aliens illegally in the United States is 
estimated at about 8.5 million or 28% of the foreign-born population in 
the United States. Researchers have noted the difficulty in determining 
the flow of undocumented aliens into the country. However, if the 
numbers described above are ``in the ball park'', i.e. there are in 
fact 8-9 million undocumented aliens in the U.S. today, the annual 
increase in the undocumented population must be in excess of 500,000 
per year and could possibly be higher for recent years. This is a 
surprising number, at least to most analysts, who have been working 
with empirically based estimates of this clandestine population.
    The results from Census 2000 call into question some of the basic 
information regarding immigration which we relied upon in the past. The 
surprise figures from the Census suggest strongly that immigration 
levels, particularly undocumented and temporary immigration, are 
substantially higher than most had suspected. With these numbers in 
mind we recommend that in addition to its customs enforcement 
responsibilities, ICE's main responsibility should be to the ``base'' 
Immigration Mission--starting with the development of a meaningful, 
comprehensive, integrated enforcement strategy. Preservation of the 
integrity of the immigration processes and systems must not be 
forgotten as our great Nation rushes to embrace the counter-terrorism 
mission. We should remember that part--a major part--of the reason we 
have a terrorism problem is because we neglected the staffing and 
support of components devoted to enforcement of the Nations basic 
immigration laws.
    As the former INS Investigations and Detention and Removal 
components transition to ICE, we note the that concerns raised in a 
2002 GAO Report titled ``Immigration Enforcement, Challenges to 
Implementing the INS Interior Enforcement Strategy'', remain the same 
today. In this report, the GAO noted that having an effective interior 
enforcement strategy is an essential complement to having an effective 
border strategy. The GAO stated that the former INS faced numerous and 
daunting enforcement issues such as, the potential pool of removable 
criminal aliens and fugitives number in the hundreds of thousands. The 
number of individuals smuggled into the United States has increased and 
alien smuggling has become more sophisticated, complex, organized and 
flexible. Thousands of aliens annually seek immigration benefits 
fraudulently. The GAO concluded that the former INS's tasks with regard 
to interior enforcement are considerable given the nature, scope, and 
magnitude of illegal activity. The GAO found that the former INS was 
and in our view today ICE is an agency that faces significant 
challenges in appropriately staffing program areas, providing reliable 
information for program management, establishing clear and consistent 
guidance for working-level staff to do their jobs consistent with the 
goals of the program, promoting collaboration and coordination within 
ICE and with other agencies, and developing outcome-based measures that 
would indicate progress toward the strategy's objectives. ICE needs to 
address these issues within its immigration law enforcement component 
immediately if it is to achieve full program potential.
    Using the events of September 11 as a barometer, we can clearly see 
what the lack of commitment to the base immigration mission yields. A 
study of terrorism conducted by the Center for Immigration Studies on 
U.S. soil over the past decade concludes that including the September 
11th hijackers, 48 foreign-born militant Islamic terrorists have been 
charged, convicted, plead guilty, or admitted to involvement in 
terrorism within the U.S. since 1993. Almost all of these individuals 
are thought to be linked to Osama bin Laden's al Qaeda organization. 
The study further concluded that foreign-born militant Islamic 
terrorists have used almost every conceivable means of entering the 
United States including sneaking across the Northern border of the 
United States. A true comprehensive, integrated interior enforcement 
strategy must be developed to provide a blueprint for the new ICE. In 
efforts to avoid ``stove piping,'' the Department of Homeland Security, 
Office of the Secretary, should ensure that a mechanism exists to 
REQUIRE cooperation between ICE, CBP and CIS. To cite an example where 
this type of coordination is currently lacking between DHS components, 
members working in a key smuggling corridor have indicated that the 
Border Patrol Sector has intentionally excluded ICE Special Agents from 
smuggling related events it encounters during the course of its routine 
patrol duties.
    If they have not already done so, we recommend that ICE immediately 
create a planning and policy formulation office. The planning and 
policy functions should succinctly and articulately state the ICE 
mission and/or missions. This stated mission should chain-drive the 
budget formulation, rather than the budget process driving the stated 
mission, as was the case with the former INS.
    ICE needs to address problems concerning interior capacity issues 
in relation to National Security Entry Exit Registration System 
(NSEERS), Student and Exchange Visitor Information System (SEVIS) and 
other law enforcement agencies referrals. Budget formulation, budget 
execution, resource deployment, personnel staffing, position management 
and position classification must address the lack of Special Agents, 
Deportation Officers, and other clerical staff actually in place to 
address ``leads'' from NSEERS and SEVIS, as well as from sources 
including federal, state, and local law enforcement agencies. Systems 
such as NSEERS or SEVIS will be rendered toothless if ICE doesn't have 
the interior enforcement resources to deal with NSEERS or SEVIS 
information on overstays, status violators and other law enforcement 
referrals. Without any consequences attached, we have only created the 
enforcement equivalent of a Potemkin Village. We CAUTION as in the past 
these resources must not be developed at the expense of anti smuggling, 
fraud, and other complex casework resources.
    In regard to the interior immigration law enforcement mission we 
recommend that a commitment be made to deal with complex, protracted 
criminal cases, such as alien smuggling/human trafficking cases, 
immigration fraud cases, and NSEERS and SEVIS related tracking 
investigations. We recommend that these investigations be conducted by 
the Special Agent (1811) component of ICE. Secondly, the administrative 
functions of interior enforcement such as administrative jail cases, 
Institutional Hearing Program (IHP) and other law enforcement referrals 
should be given the same commitment. FLEOA recommends that the 
administrative mission of ICE immigration enforcement such as IHP and 
county jail cases be assigned to the Detention and Removal component. 
We note that these are related-but-different programs. Both missions 
must be accomplished--and one cannot be emphasized at the expense of 
the other.
    To see that criminal cases generated from ICE Special Agents are 
given consideration in the ever competitive world of federal law 
enforcement, we recommend that an Assistant United States Attorney in 
each United States Attorney Office be dedicated to immigration 
enforcement similar to those dedicated for asset forfeiture matters. We 
would ask for 50% of his/her time at a minimum be devoted to 
immigration related matters.
    To allow ICE Special Agents to focus on the complex criminal 
matters as well as matters relating to national security it is 
essential that ICE Special Agents be relieved of all administrative 
jail duties. ICE Special Agents should no longer be utilized to 
accomplish routine administrative activities such as processing aliens 
under the NSEERS program or approving schools under the SEVIS program. 
These time consuming duties, as well as routine deportation escorts, 
would be better accomplished by the Detention and Removal component of 
ICE or through contracts with non-government entities and/or rehired 
annuitants. To accomplish its immigration enforcement mission, ICE 
would need to increase staffing levels by 100% in both the 
Investigations Program and the Detention and Removal Program. An 
increase in Special Agents from its current level of approximately 2000 
to 4000 would cost approximately $234,078,000 according to modular 
costs. An increase in Deportation Officers to 2000 Officers would be 
needed to handle the current immigration enforcement workload, and 
again according to modular costs would cost approximate $241,054,000. 
We should note that these numbers would only be realistic with a net 
zero growth in the illegal alien population. Furthermore, ICE would 
need to immediately revamp and streamline the former INS's enforcement 
operations, directives and policies.
    Our members in the field have continuously stated that one of the 
greatest problems in enforcing our Nations Immigration Law is in the 
area of detention and removal. Large amounts of illegal aliens are 
released in some districts (as many as fifty a day) before ever seeing 
an Immigration Judge. Lack of bed space is always cited as the reason. 
Many of the available beds available for immigration detainees have 
disappeared because of unrealistic ``Detention Standards'' imposed on 
local and county jails that house federal inmates in 1998. We would ask 
that these be relaxed or allow all existing jails some of which are 
very old to be ``Grandfathered'' so that they need not apply all 39 of 
these unworkable detention standards to housing immigration detainees. 
One such jails, which supports the enforcement of the Northern Border 
in the State of Vermont, is one of the only facilities in the State 
that has room for immigration violators. It has space for INS detainees 
and is favored by detainees but was removed from being able to hold 
detainees more than 72 hours due to these detention standards. This 
impedes immigration enforcement and increases costs. Many of these 
jails have existed for decades without incident. Many illegal aliens 
are released despite the fact that many do not have a valid, verifiable 
address and are never heard from again. In simple terms, ICE needs to 
learn how to detain and remove undocumented aliens.
                            alien smuggling
    The GAO noted in a 2000 report titled ``Alien Smuggling: Management 
and Operational Improvements Needed to Address Growing Problem'' that 
without improvements in its Investigations and Intelligence Programs, 
INS's ability to disrupt and deter increasingly sophisticated and 
organized alien smugglers and dismantle their organizations will 
continue to be hampered.
    Again in a GAO Report on the former INS in 2002, the GAO was very 
critical of the INS's ability to investigate alien smuggling groups, 
stating that without improvements in its investigations and 
intelligence programs, INS anti-smuggling efforts will continue to be 
hampered in the face of the growing tide of aliens entering the United 
States with the aid of smuggling organizations. The GAO went on further 
to note that INS's alien smuggling investigative efforts have been 
fragmented and uncoordinated.
    Although the problems within the INS Anti-Smuggling program are 
well documented, FLEOA recommends that ICE be the central investigative 
agency for all human trafficking/alien smuggling investigations. 
Currently, there is no stated mission involving the targeting of human 
trafficking/alien smuggling organizations within ICE. Research 
indicates that the majority of illegal entrants have utilized the 
assistance of a smuggling organization to enter the United States. As 
Congress has heard in previous expert testimony, alien smugglers have 
developed dozens of alternative routes; fewer illegal immigrants come 
in by ship or cross the United States Borders by land. They are 
increasingly coming in by air. Utilizing stolen or counterfeited 
passports, immigrants are allowed to board U. S. bound planes by 
unsuspecting airline officials or by bribing foreign airport personnel.
    We recommend that by making human trafficking/alien smuggling 
investigations one of ICE's primary enforcement functions, the need 
exists to immediately fund and staff this component to levels that 
allow it to be effective. Research and experience has led us to believe 
that the most effective means to enforce laws relating to human 
trafficking/alien smuggling organizations would be to centralize all 
human trafficking/alien smuggling investigations into one agency with 
adequate staffing, funding and a strong headquarters component. It is 
imperative this program be given the requisite attention.
    To assist the alien smuggling mission, ICE needs to think with some 
breadth and depth of vision. No longer can we think from a narrow, 
blinded point-of-view. We recommend the consolidation of the overseas 
operations at Border Transportation Security (BTS) directorate level, 
since they involve elements of the ICE and CBP mission. These functions 
should include oversight of visa issuance at overseas posts and the 
headquarters coordination of all alien smuggling investigations.
    FLEOA would like to bring to the committees attention a March 20, 
2003, Washington Post article in which it noted that the Attorney 
General had granted the FBI, the U.S. Marshal's Service and some local 
law enforcement agencies authority to detain foreign nationals for 
alleged immigration violations. The Attorney General has realized what 
FLEOA has been saying for years, that immigration law enforcement has 
been overlooked and that the approximately 2000 INS Special Agents 
assigned to interior enforcement matters in not adequate.
    We should resist any attempts to divide the immigration law 
enforcement mission into many agencies. ICE should be the clearinghouse 
for all immigration related law enforcement issues. We should keep in 
mind the 1991 GAO report regarding immigration law enforcement. The GAO 
report stated that INS leadership had allowed the INS organizational 
structure to become decentralized without adequate controls. The field 
structure designed to carry out INS enforcement functions was 
bifurcated between districts and Border Patrol Sectors, resulting in 
uncoordinated, overlapping programs. It is our belief that any attempts 
to integrate duties historically executed by one agency into many, will 
only make matters worse and again lessen the quality and quantity of 
immigration law enforcement. The solution, as we see it, is resources, 
specifically, additional immigration 1811 Special Agent positions, who 
are trained and experienced in the enforcement of the immigration laws 
of the United States. Anything less, would not be fair to the legal 
immigrants who enter this nation each and every day.
                       benefit application fraud
    In a 2002 GAO report titled ``Immigration Benefit Fraud, Focused 
Approach Needed to Address Problems''. The GAO noted that the former 
INS did not know the extent of the immigration benefit fraud problem. 
However, reports and statements from former INS officials indicated 
that the problem is pervasive and significant and will increase as 
smugglers and other criminal enterprises use fraud as another means of 
bringing illegal aliens, including criminal aliens, terrorist, and 
foreign intelligence agents into the United States. The GAO reported 
that the former INS interior enforcement strategy failed to lie out a 
comprehensive plan to identify how components within and among service 
centers and district offices are to coordinate their immigration 
benefit fraud investigations.
    In a 1997 Washington Post article, Bill Branigin reported, ``that 
in most cases suspected benefit fraud is never investigated''. 
Branigin, states, ``that the INS says, it lacks the manpower and 
resources to do so, more than half the fraud cases referred to it go 
unadddressed ``. INS officials stated further, ``we have a large number 
of suspected fraudulent applications in our hands that we can't even 
touch''.
    The GAO notes that efforts to address benefit fraud were given a 
lower priority within the former INS, and resources devoted to it were 
limited. The GAO report concluded that immigration benefit fraud has 
been a long-standing problem for the former INS that has grown more 
intense and serious as criminal aliens and terrorists have used the 
application process for illegal activities, such as crimes of violence, 
narcotics trafficking, and terrorism. Institutionally, the former INS 
has not done much to combat this significant problem, which threatens 
the integrity of the legal immigration system because it results in 
granting valuable benefits to ineligible aliens. We recommend that ICE 
immediately prioritize investigations targeting Immigration Benefit 
Fraud and adopt the recommendations made in the GAO report.
    If ICE is to accomplish the tasks outlined above in both the 
enforcement of alien smuggling and benefit fraud statutes, we recommend 
that ICE increase case funding to the extent of 5 million per year. As 
Congress has heard in previous testimonies, the former INS had 
consistently under funded or misdirected criminal case related funding.
                               management
    In April of 2002, FLEOA testified that it was our view that the INS 
has lost the confidence of the American people. Noting that following a 
GAO report in 1991, entitled ``Immigration Management: Strong 
Leadership and Management Reforms Needed to Address Serious Problems,'' 
the INS undertook an administrative reform in 1994. Again in 1997, the 
GAO issued a report ``Immigration Management, Follow-up on Selected 
Problems''. This again prompted INS reform in 1998. Since the GAO 
report in 1991, there has been a succession of negative and critical 
reports in regard to the former INS by numerous other governmental and 
private entities. In March, 6o Minutes broadcast a report in which it 
noted ``few if any federal agencies have a worse record than the INS 
when it comes to mismanagement, corruption, inefficiency and 
ineptitude''. A few days after that report is was reported that the INS 
notified a Florida flight school that student visas for two of the 
September 11 hijackers had been approved.
    Based upon the above stated accounts and numerous other accounts 
that are similar, it is our view that careful consideration should be 
given in the selection of former INS managers to management positions 
within ICE. We recommend that only individuals with extensive 1811 
experience should hold all future appointments to Special Agent in 
Charge (SAC) positions. Furthermore, it is recommended that all SAC's 
be appointed to a different geographical location in order to ensure 
standardization while eliminating questions of nepotism. This will 
ensure the promotion of seasoned and well-rounded managers.
    Rotation of personnel between HQ and the field must be a 
systematic, sincere, and substantive policy. While this was first 
recommended 63 years ago (page 143 of the Secretary of Labor's Report 
on the Reorganization of INS, dated 1940--also known as the ``Dimock 
Report)--it never really happened. We recognize that this now is 
mandated by statute. Further, positions that are redundant, such as 
OCDETF coordinators from both Customs and INS should be eliminated.
    As Congress has heard in previous testimony, Federal Agents cannot 
do their jobs properly with current restrictive policies put in place 
by Headquarters managers overly concerned with the perceptions of 
enforcement activities in the media. Our members have provided various 
examples as to these restrictive policies and their effects on job 
performance and morale. In one case, a Deportation Officer noted that 
in his Region, a policy was put out on how Deportation Officers can 
conduct fugitive operations. What was once a routine duty, going out in 
the field, running down leads, locating and apprehending fugitive 
aliens, now requires that an ``operation plan'' be written up and 
signed off by a supervisor, even for just one alien. Special Agents in 
one former INS Region are no longer able to search for fugitive aliens 
after sundown, to do so would require written approval by the Assistant 
District Director for Investigations.
    In addition, Special Agents must also write up and get approved, at 
numerous levels, an ``operation plan'' to apprehend any alien--even if 
a probation officer calls to say a criminal alien is sitting in his 
office. In one former INS District, when agents began concentrating on 
arresting sex offenders, the former District Director put out a policy 
that agents couldn't apprehend any ``breadwinners.'' This policy 
prevented a gang unit agent from apprehending a gang member, who the 
very next week, shot and killed an innocent bystander at a taco stand. 
Incidents like this have led to the decline of morale. In a November 
2002, directive promulgated by the former INS Headquarters, it was 
mandated that any attempt to operate an undercover operation utilizing 
smuggled illegal aliens will be accompanied by the illegal alien's 
identity data and immigration status before the operation will be 
approved. The use of an undercover operation in the first place assumes 
the lack of knowledge in regards to these details making this the 
equivalent of approaching a drug trafficker and asking him/her to 
provide the name and date of birth of the trafficker that will bring 
the narcotics into the US.
    In essence, the work environment for immigration law enforcement 
has changed drastically. The statutory mandates as well as funding for 
immigration law enforcement have similarly undergone dramatic changes, 
yet the former INS remained stagnant, at best, and highly resistant to 
those very changes.
    I respectfully submit to this distinguished Subcommittee today that 
the events of September 11, 2001, are proof positive that such an 
integral part of our homeland defense must be professional in every 
sense of the word and will thereby be successful.
                  immigration enforcement can succeed
    Immigration law enforcement must be both professionalized and 
depoliticized. We must no longer confuse effective immigration law 
enforcement as being anti-immigration.
    Yes, we are a nation of immigrants, but as this nation was built on 
its immigration, its immigrants were inspected and documented. Today's 
flow of immigration remains increasingly clandestine, undetected and in 
some cases deadly, taking advantage of our benevolence. We are a nation 
that respects the rule of law above all else. Effective immigration law 
enforcement should be looked upon as a safeguard for those who seek 
shelter and a better life in America. Effective immigration enforcement 
will decrease the ability of unscrupulous alien smugglers, document 
vendors, employers and immigration consultants to jeopardize our 
safety, or to pray upon the immigrant's desperation in seeking a better 
life in America.
    The consolidation of enforcement functions within the Department of 
Homeland Security and ICE will not only alleviate the problem of 
overlapping enforcement programs, but will enhance the ability to 
maintain consistent service and enforcement postures throughout the 
United States.
    The establishment of integrated sub-units under ICE at the field 
level would ensure an appropriate level of specialization while 
maintaining flexibility, and would facilitate a cooperative and 
balanced approach.
    FLEOA recommends the establishment of a Chief Enforcement Officer 
who supervises all enforcement components in a particular field 
enforcement sector, who reports to ICE Headquarters, is an idea whose 
time has come.
    Congress must begin to strike a balance between enforcement on our 
borders and enforcement in the interior. Clearly, the catastrophic 
attacks of September 11th demonstrated that a total focus on the first 
line of defense will lead to only a hollow victory. Word of mouth 
travels rapidly back to the source countries that one must merely make 
it across the border in order to obtain this new gift of unsanctioned 
amnesty. In short, we will never restore domestic tranquility until we 
begin to establish meaningful rather than token control over our 
borders and the interior of the United States through comprehensive 
immigration law enforcement.
    Mr. Chairman, I would respectfully submit that upon creation of the 
Bureau of Immigration and Customs Enforcement, it is not necessary to 
reinvent the wheel but merely adopt tried and true successful practices 
of modern day law enforcement entities. FLEOA recommends strongly the 
Implementation of Enforcement Sectors within the ICE and CBP. This 
would facilitate a cooperative and balanced approach to enforcement of 
our nation's immigration laws. In turn, you will then begin to see the 
accountability and productivity that our citizens not only deserve but 
also, are demanding of immigration enforcement.
    The immigration issue is based upon law and should not be dictated 
by the politics of the moment. FLEOA would stress that the Director of 
the new Enforcement Bureau must be guaranteed freedom from political 
interference. Without equal emphasis in ICE for immigration law 
enforcement, it is unlikely that the legislative innovations against 
international terrorism passed by the 104th Congress in 1996 will ever 
be used to their full potential. Only through streamlining the 
bureaucracy, overcoming institutional inertia, and establishing balance 
through a separation of functions, can modern day immigration law 
enforcement be successful.
    On behalf of the Federal Law Enforcement Officers Association, and 
the many dedicated men and women who risk their lives enforcing our 
immigration laws, I appreciate your time and attention, and the 
opportunity to share our views; these employees support what you are 
doing. I will be happy to answer any questions you may have. Thank you.

    Mr. Hostettler. Mr. Stana, you're free to testify. Once 
again, thank you for your flexibility in your schedule and for 
being here today.

STATEMENT OF RICHARD M. STANA, DIRECTOR, HOMELAND SECURITY AND 
            JUSTICE, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Stana. Thank you, Mr. Chairman, and Members of the 
Subcommittee. I am pleased to be here today to discuss the 
challenges facing the immigration interior enforcement 
strategy.
    This is essentially the same strategy that INS issued in 
1999, and refocused following the events of 9/11. The strategy 
is designed to identify and remove criminal aliens from the 
United States, dismantle and diminish alien smuggling 
operations, resolve community complaints about illegal 
immigrants, detect benefit and document fraud, and deny 
employers access to unauthorized workers. Historically, 
interior enforcement programs have received about one-fifth of 
the funding devoted to border enforcement.
    My prepared statement discusses in detail the results of 
our most recent work on these programs, and in my oral 
statement I would like to focus on three main points.
    First, like INS before it, ICE faces daunting interior 
enforcement issues. For example, as Mr. Danahey mentioned, the 
potential poll of removal criminal aliens and fugitives numbers 
in the hundreds of thousands. Criminal aliens are incarcerated 
in hundreds of Federal, State and local facilities, while 
others are fugitives at large across the country. The number of 
individuals smuggled into the United States has increased 
dramatically, and alien smuggling has become more 
sophisticated, complex, organized and violent. Annually, 
thousands of aliens seek immigration benefits, such as work 
authorization and change of status, and some of these aliens 
use the benefits to enable them to conduct criminal activities. 
Hundreds of thousands of aliens unauthorized to work in the 
United States have used fraudulent documents to circumvent the 
process designed to prevent employers from hiring them. In some 
instances, such aliens have sought and obtained employment in 
sensitive industries. Given the nature, scope and magnitude of 
these issues, ICE needs to ensure that it's making the best use 
of its limited enforcement resources.
    Second, our work has disclosed fundamental management 
challenges that affect the interior enforcement programs and 
need to be addressed by ICE as it inherits this responsibility. 
The following four examples illustrate the need for 
improvement.
    The first example: In several areas we noted that INS did 
not believe it had sufficient staff to reach its program goals, 
but it also lacked data on how best to use existing or 
additional staff. In the criminal alien removal and criminal 
benefit fraud programs, INS lacked good management information 
to determine how many staff it needed and how to allocate 
additional staff to best achieve program goals.
    Example two: INS had long-standing difficulty developing 
and fielding information systems to support its program 
operations. Too often, program and management data were kept in 
a variety of automated systems that were difficult to access 
and analyze. Further, data gaps and inaccuracies put program 
officials in a poor position to make fact-based decisions about 
applicant eligibility and program management.
    Example three: Working level guidance was sometimes lacking 
or nonexistent. We found that guidance had not been established 
for opening and prioritizing benefit fraud, and worksite 
enforcement investigations, and without such guidance, ICE 
cannot be assured that the highest priority cases are 
investigated and resources are used optimally.
    The final example: Performance measurement was sometimes 
problematic. INS had not established outcome-based performance 
measures for the interior enforcement strategy in general, or 
for the individual programs in particular. Such measures would 
have helped to assess the results of the programs and identify 
areas for improvement.
    We have made many recommendations to INS in these areas, 
some of which have already been implemented, while others 
require attention by ICE. In our strategic plan, we express our 
intent to follow up on these issues and recommendations.
    My last point is that since the attacks of 9/11, and with 
the formulation of DHS, new management challenges have emerged. 
For example, ICE needs to create appropriate cross-walks to 
other DHS components to assure collaboration and cooperation, 
such as to BCBP for alien smuggling and intelligence 
initiatives, and to BCIS, for benefit application reviews. As a 
second example, ICE needs to assure that its investigators 
receive training to perform their expanded antiterrorism duties 
effectively, while recognizing citizen and alien rights. And it 
needs to reinforce management controls to help assure 
compliance with DHS policies and procedures.
    In closing, let me say that having an effective immigration 
interior enforcement strategy is an essential complement to 
having an effective border control strategy. ICE faces numerous 
and difficult challenges, some long-standing and some new. In 
the final analysis, successful implementation of the strategy 
will depend largely on dedicated and sustained leadership and 
management attention to resolving the problems.
    This concludes my oral statement, and I would be happy to 
answer any questions Members of the Subcommittee may have.
    [The prepared statement of Mr. Stana follows:]
                 Prepared Statement of Richard M. Stana
    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here today to discuss the Department of Homeland 
Security's (DHS) Immigration Interior Enforcement Strategy, whose 
implementation is now the responsibility of the Bureau of Immigration 
and Customs Enforcement (BICE). As you know, this strategy was 
originally created by the Immigration and Naturalization Service (INS). 
This statement discusses the interior enforcement strategy and selected 
issues pertaining to its implementation and management.
    In the 1990s, INS developed a strategy to control illegal 
immigration across the U.S. border and a strategy to address 
enforcement priorities within the country's interior. In 1994, INS's 
Border Patrol issued a strategy to deter illegal entry. The strategy 
called for ``prevention through deterrence''; that is, to raise the 
risk of being apprehended for illegal aliens to a point where they 
would consider it futile to try to enter. The plan called for targeting 
resources in a phased approach, starting first with the areas of 
greatest illegal activity. In 1999, the INS issued its interior 
enforcement strategy designed to deter illegal immigration, prevent 
immigration-related crimes, and remove those illegally in the United 
States. Historically, Congress and INS have devoted over five times 
more resources in terms of staff and budget on border enforcement than 
on interior enforcement.
    In my statement today, I make the following points:

        <bullet> LINS's interior enforcement strategy was designed to 
        address (1) the detention and removal of criminal aliens, (2) 
        the dismantling and diminishing of alien smuggling operations, 
        (3) community complaints about illegal immigration, (4) 
        immigration benefit and document fraud, and (5) employers' 
        access to undocumented workers. These components remain in the 
        BICE strategy.

        <bullet> LINS faced numerous challenges in implementing the 
        strategy. For example, INS lacked reliable data to determine 
        staff needs, reliable information technology, clear and 
        consistent guidelines and procedures for working-level staff, 
        effective collaboration and coordination within INS and with 
        other agencies, and appropriate performance measures to help 
        assess program results. As BICE assumes responsibility for 
        strategy implementation, it should consider how to address 
        these challenges by improving resource allocation, information 
        technology, program guidance, and performance measurement.

        <bullet> LThe creation of DHS has focused attention on other 
        challenges to implementing the strategy. For example, BICE 
        needs to coordinate and collaborate with the Bureau of 
        Citizenship and Immigration Services (BCIS) for the timely and 
        proper adjudication of benefit applications, and with the 
        Bureau of Customs and Border Protection (BCBP) to assist in 
        antismuggling investigations and sharing intelligence. In 
        addition, BICE needs to assure that training and internal 
        controls are sufficient to govern investigators' antiterrorism 
        activities when dealing with citizens and aliens.

    My testimony today is based primarily on the results of work that 
we have completed in recent years, namely, our February 1999 testimony 
on INS's efforts to identify and remove criminal aliens,\1\ our April 
1999 report on INS's worksite enforcement program,\2\ our May 2000 
report on alien smuggling,\3\ our May 2001 report on the processing of 
immigration benefits,\4\ our January 2002 report on immigration benefit 
fraud,\5\ our March 2002 report on INS' Forensic Document 
Laboratory,\6\ our November 2002 report on INS's alien address 
information,\7\ and our January 2003 reports on major management 
challenges and program risks at the Departments of Homeland Security 
and Justice.\8\
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Criminal Aliens: INS' Efforts 
to Identify and Remove Imprisoned Aliens Continue to Need Improvement, 
GAO/T-GGD-99-47 (Washington, D.C.: Feb. 25, 1999).
    \2\ U.S. General Accounting Office, Illegal Aliens: Significant 
Obstacles to Reducing Unauthorized Alien Employment Exist, GAO/GGD-99-
33 (Washington, D.C.: Apr. 2, 1999).
    \3\ U.S. General Accounting Office, Alien Smuggling: Management and 
Operational Improvements Needed to Address Growing Problem, GAO/GGD-00-
103 (Washington, D.C.: May 1, 2000).
    \4\ U.S. General Accounting Office, Immigration Benefits: Several 
Factors Impede the Timeliness of Application Processing, GAO-01-488 
(Washington, D.C.: May 4, 2001).
    \5\ U.S. General Accounting Office, Immigration Benefit Fraud: 
Focused Approach Is Needed to Address Problems, GAO-02-66 (Washington, 
D.C.: Jan. 31, 2002).
    \6\ U.S. General Accounting Office, INS Forensic Document 
Laboratory: Several Factors Impeded Timeliness of Case Processing, GAO-
02-410 (Washington, D.C.: Mar. 13, 2002)
    \7\ U.S. General Accounting Office, Homeland Security: INS Cannot 
Locate Many Aliens Because It Lacks Reliable Address Information, GAO-
03-188 (Washington, D.C., Nov. 21, 2002).
    \8\ U.S. General Accounting Office, Major Management Challenges and 
Program Risks: Department of Homeland Security, GAO-03-102 (Washington, 
D.C., Jan. 2003); and Major Management Challenges and Program Risks: 
Department of Justice, GAO-03-105 (Washington, D.C., Jan. 2003).
---------------------------------------------------------------------------
    In these reports we made many recommendations to improve INS 
operations. INS had implemented or was in the process of implementing 
some of these recommendations. We plan to follow up on DHS plans to 
improve the various programs.
            components of the interior enforcement strategy
    In January 1999, INS issued its Interior Enforcement Strategy. This 
strategy focused resources on areas that would have the greatest impact 
on reducing the size and annual growth of the illegal resident 
population. Certain criteria were used to develop the priorities and 
activities of the strategy. The criteria focused on potential risks to 
U.S. communities and persons, costs, capacity to be effective, impact 
on communities, potential impact on reducing the size of the problem, 
and potential value for prevention and deterrence. The strategy 
established the following five areas in priority order:

        1. LIdentify and remove criminal aliens and minimize 
        recidivism. Under this strategic priority, INS was to identify 
        and remove criminal aliens as they come out of the federal and 
        state prison systems and those convicted of aggravated felonies 
        currently in probation and parole status.

        2. LDeter, dismantle, and diminish smuggling or trafficking of 
        aliens. This strategic priority called for INS to disrupt and 
        dismantle the criminal infrastructure that encourages and 
        benefits from illegal migration. INS efforts were to start in 
        source and transit countries and continue inside the United 
        States, focusing on smugglers, counterfeit document producers, 
        transporters, and employers who exploit and benefit from 
        illegal migration.

        3. LRespond to community reports and complaints about illegal 
        immigration. In addition to responding to local law enforcement 
        issues and needs, this strategic priority emphasizes working 
        with local communities to identify and address problems that 
        arise from the impact of illegal immigration, based on local 
        threat assessments.

        4. LMinimize immigration benefit fraud and other document 
        abuse. Under this strategic priority, INS was to aggressively 
        investigate and prosecute benefit fraud and document abuse to 
        promote integrity of the legal immigration system.

        5. LBlock and remove employers' access to undocumented workers. 
        The strategy emphasizes denying employers access to 
        unauthorized workers by checking their compliance with the 
        employment verification requirements in the Immigration Reform 
        and Control Act of 1986. Coupled with its efforts to control 
        smuggling activity, this effort could have a multiplier effect 
        on access of employers to illegal workers and on the overall 
        number of illegal residents in the country.
    Figure 1 shows that INS had generally allocated its interior 
enforcement resources consistent with these priorities and that the 
workyears devoted to several of INS's interior enforcement efforts had 
either declined or stayed about the same between fiscal years 1998 and 
2002.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      challenges to implementing the interior enforcement programs
    Our work has shown that INS faced numerous daunting enforcement 
issues, as will BICE as it assumes responsibility for the strategy. For 
example, the potential pool of removable criminal aliens and fugitives 
numbers in the hundreds of thousands. Many are incarcerated in hundreds 
of federal, state, and local facilities, while others are fugitives at 
large across the country. The number of individuals smuggled into the 
United States has increased dramatically, and alien smuggling has 
become more sophisticated, complex, organized, and flexible. Thousands 
of aliens annually illegally seek immigration benefits, such as work 
authorization and change of status, and some of these aliens use these 
benefits to enable them to conduct criminal activities. Hundreds of 
thousands of aliens unauthorized to work in the United States have used 
fraudulent documents to circumvent the process designed to prevent 
employers from hiring them. In many instances, employers are complicit 
in this activity.
    Given the nature, scope, and magnitude of these activities, BICE 
needs to ensure that it is making the best use of its limited 
enforcement resources. We found that fundamental management challenges 
exist in several of the interior enforcement programs and that 
addressing them will require the high-level attention and concerted 
efforts of BICE.
Need for Better Staff Levels and Allocations
    In several reports we noted that INS did not believe it had 
sufficient staff to reach its program goals. Having data on how to 
effectively allocate staff and placing sufficient staff in the right 
locations is important if BICE is to achieve program goals. Staff 
shortages had contributed to INS's inability to promptly remove the 
majority of criminal aliens after they have completed their prison 
sentences. In 1997 INS did not place into removal proceedings 50 
percent of potentially deportable criminal aliens who were released 
from federal prisons and state prisons from 5 states. In 1999 we 
reported that, although the removal of criminal aliens was an INS 
management priority, INS faced the same staff shortage issues in 1997 
as it had in 1995. In particular, agent attrition--about one-third of 
the workforce--continued to impede INS's ability to meet its program 
goals. INS had told us that since 1997, the attrition rates of agents 
in this program has stabilized and that, in fiscal year 2003, the 
agents from this program would be reclassified as detention removal 
officers, which INS believed should further help reduce attrition.
    Even if INS had additional staff working in these program areas, it 
lacked good management information to determine how many staff it 
needed to meet its program goals and how best to allocate staff given 
the limited resources it did have. With respect to its program for 
removing incarcerated criminal aliens, INS told us that beginning in 
fiscal year 2002, the agency implemented our recommendation to use a 
workload analysis model. This was to help identify the resources the 
agency needed for its criminal alien program in order to achieve 
overall program goals and support its funding and staffing requests. We 
have not reviewed this new model to ascertain its usefulness.
    With respect to alien smuggling, INS lacked field intelligence 
staff to collect and analyze information. Both 1998 and 1999 INS Annual 
Performance Plan reports stated that the lack of intelligence personnel 
hampered the collection, reporting, and analysis of intelligence 
information. Although INS's Intelligence Program proposed that each 
district office have an intelligence unit, as of January 2000, 21 of 
INS's 33 districts did not have anyone assigned full-time to 
intelligence-related duties. Our ongoing work at land ports of entry 
shows this to be a continuing problem.
    The worksite enforcement program received a relatively small 
portion of INS's staffing and budget. In fiscal year 1998, INS 
completed a total of 6,500 worksite investigations, which equated to 
about 3 percent of the estimated number of employers of unauthorized 
aliens. Given limited enforcement resources, BICE needs to assure that 
it targets those industries where employment of illegal aliens poses 
the greatest potential risk to national security. The program now has 
several initiatives underway that target sensitive industries.
Need for Better Information Technology
    INS had long-standing difficulty developing and fielding 
information systems to support its program operations, and effectively 
using information technology continued to remain a challenge. For 
example, in 2002 we reported that benefit fraud investigations had been 
hampered by a lack of integrated information systems. The operations 
units at the four INS service centers that investigate benefit fraud 
operate different information systems that did not interface with each 
other or with the units that investigate benefit fraud at INS district 
offices. As a result, sharing information about benefit applicants is 
difficult. The INS staff who adjudicate applications did not have 
routine access to INS's National Automated Immigration Lookout System 
(NAILS). Not having access to or not using NAILS essentially means that 
officers may be making decisions without access to or using significant 
information and that benefits may be granted to individuals not 
entitled to receive them. Thus, INS was not in the best position to 
review numerous applications and detect patterns, trends, and potential 
schemes for benefit fraud.
    Further, in 2002 we reported that another INS database, the 
Forensic Automated Case and Evidence Tracking System (FACETS), did not 
contain sufficient data for managers to know the exact size and status 
of the laboratory's pending workload or how much time is spent on each 
forensic case by priority category. As a result, managers were not in 
the best position to make fact-based decisions about case priorities, 
staffing, and budgetary resource needs.
    With respect to the criminal alien program, in 1999 we reported 
that INS lacked a nationwide data system containing the universe of 
foreign-born inmates for tracking the hearing status of each inmate. In 
response to our recommendation, INS developed a nationwide automated 
tracking system for the Bureau of Prisons and deployed the system to 
all federal institutional hearing program sites. INS said that it was 
working with the Florida Department of Corrections to integrate that 
state's system with INS's automated tracking system. INS also said that 
it planned to begin working with New York, New Jersey, and Texas to 
integrate their systems and then work with California, Illinois, and 
Massachusetts. We have not examined these new systems to determine 
whether they were completed as planned or to ascertain their 
effectiveness.
    In 2000 we reported that INS lacked an agencywide automated case 
tracking and management system that prevented antismuggling program 
managers from being able to monitor their ongoing investigations, 
determine if other antismuggling units were investigating the same 
target, or know if previous investigations had been conducted on a 
particular target. In response to our recommendation, INS deployed an 
automated case tracking and management system for all of its criminal 
investigations, including alien smuggling investigations. Again, we 
have not examined the new system to ascertain its effectiveness.
Need for Better Guidance to Program Staff
    Our review of the various program components of the interior 
enforcement strategy found that working-level guidance was sometimes 
lacking or nonexistent. INS had not established guidance for opening 
benefit fraud investigations or for prioritizing investigative leads. 
Without such criteria, INS could not be ensured that the highest-
priority cases were investigated and resources were used optimally.
    INS's interior enforcement strategy did not define the criteria for 
opening investigations of employers suspected of criminal activities. 
In response to our recommendation, INS clarified the types of employer-
related criminal activities that should be the focus of INS 
investigations.
    INS's alien smuggling intelligence program had been impeded by a 
lack of understanding among field staff about how to report 
intelligence information. Staff were unclear about guidelines, 
procedures, and effective techniques for gathering, analyzing, and 
disseminating intelligence information. They said that training in this 
area was critically needed.
Need for Better Performance Measures
    INS had not established outcome-based performance measures that 
would have helped it assess the results of its interior enforcement 
strategy. For example, in 2000 we reported that while INS had met its 
numeric goals for the number of smuggling cases presented for 
prosecution in its antismuggling program, it had not yet developed 
outcome-based measures that would indicate progress toward the 
strategy's objective of identifying, deterring, disrupting, and 
dismantling alien smuggling. This was also the case for the INS 
intelligence program. INS had not developed outcome-based performance 
measures to gauge the success of the intelligence program to optimize 
the collection, analysis, and dissemination of intelligence 
information.
    In 2002 we reported that INS had not yet established outcome-based 
performance measures that would help it assess the results of its 
benefit fraud investigations. Additionally, INS had not established 
goals or measurement criteria for the service center operations units 
that conduct fraud investigation activities. INS's interior enforcement 
strategy did not clearly describe the specific measures INS would use 
to gauge its performance in worksite enforcement. For example, in 1999 
we reported that the strategy stated that INS would evaluate its 
performance on the basis of such things as changes in the behavior or 
business practices of persons and organizations, but did not explain 
how they expected the behavior and practices to change. And although 
INS indicated that it would gauge effectiveness in the worksite area by 
measuring change in the wage scales of certain targeted industries, it 
left unclear a number of questions related to how it would do this. For 
example, INS did not specify how wage scales would be measured; what 
constituted a targeted industry; and how it would relate any changes 
found to its enforcement efforts or other immigration-related causes. 
The strategy stated that specific performance measurements would be 
developed in the annual performance plans required by the Government 
Performance and Results Act.
    According to INS's fiscal year 2003 budget submission, the events 
of September 11th required INS to reexamine strategies and approaches 
to ensure that INS efforts fully addressed threats to the United States 
by organizations engaging in national security crime. As a result, with 
regard to investigating employers who may be hiring undocumented 
workers, INS planned to target investigations of industries and 
businesses where there is a threat of harm to the public interest. 
However, INS had not set any performance measures for these types of 
worksite investigations.
        challenges faced by dhs relating to interior enforcement
    Since the attacks of September 11, 2001, and with the formation of 
DHS, a number of management challenges are evident. Some of the 
challenges discussed above carry over from the INS, such as the need 
for sound intelligence information, efficient use of resources and 
management of workloads, information systems that generate timely and 
reliable information, clear and current guidance, and appropriate 
performance measures. Other challenges are emerging. These include 
creating appropriate cooperation and collaboration mechanisms to assure 
effective program management, and reinforcing training and management 
controls to help assure compliance with DHS policies and procedures and 
the proper treatment of citizens and aliens.
Need for Program Collaboration/Coordination
    BICE will need to assure that appropriate cooperation and 
collaboration occurs between it and other DHS bureaus. For example, 
both the Border Patrol, now located in the Bureau of Customs and Border 
Protection (BCBP), and BICE's immigration investigations program 
conducted alien smuggling investigations prior to the merger into DHS. 
These units operated through different chains of command with different 
reporting structures. As a result, INS's antismuggling program lacked 
coordination, resulting in multiple antismuggling units overlapping in 
their jurisdictions, making inconsistent decisions about which cases to 
open, and functioning autonomously and without a single chain of 
command. It's unclear at this time how the anti-smuggling program will 
operate under DHS. Should both BCBP's Border Patrol and BICE's 
Investigations program continue to conduct alien smuggling 
investigations, Under Secretary Hutchinson will need to assure that 
coordination and collaboration exists to overcome previous program 
deficiencies.
    The Bureau of Citizenship and Immigration Services (BCIS) is 
responsible for administering services such as immigrant and 
nonimmigrant sponsorship, work authorization, naturalization of 
qualified applicants for U.S. citizenship, and asylum. Processing 
benefit applications is an important DHS function that should be done 
in a timely and consistent manner. Those who are eligible should 
receive benefits in a reasonable period of time. However, some try to 
obtain these benefits through fraud, and investigating fraud is the 
responsibility of BICE's Immigration Investigations program. INS' 
approach to addressing benefit fraud was fragmented and unfocused. INS' 
interior enforcement strategy did not address how the different INS 
components that conducted benefit fraud investigations were to 
coordinate their investigations. Also, INS had not established guidance 
to ensure the highest-priority cases are investigated. Secretary Ridge 
will need to ensure the two bureaus work closely to assure timely 
adjudication for eligible applicants while identifying and 
investigating potential immigration benefit fraud cases.
    BICE's Intelligence Program is responsible for collecting, 
analyzing, and disseminating immigration-related intelligence. 
Immigration-related intelligence is needed by other DHS components such 
as Border Patrol agents and inspectors within BCBP and personnel within 
BCIS adjudicating immigration benefits. BICE will need to develop an 
intelligence program structure to ensure intelligence information is 
disseminated to the appropriate components within DHS's other bureaus.
Need to Reinforce Training and Internal Controls
    Since the attacks of September 11, 2001, and with the formation of 
DHS, the linkages between immigration enforcement and national security 
have been brought to the fore. Immigration personnel have been tapped 
to perform many duties that previously were not part of their normal 
routine. For example, as part of a special registration program for 
visitors from selected foreign countries, immigration investigators 
have been fingerprinting, photographing, and interviewing aliens upon 
entry to the U.S. Immigration investigators have also participated in 
anti-terrorism task forces across the country and helped interview 
thousands of non-immigrant aliens to determine what knowledge they may 
have had about terrorists and terrorist activities. As part of its 
investigation of the attacks of September 11, the Justice Department 
detained aliens on immigration charges while investigating their 
potential connection with terrorism. An integrated Entry/Exit System, 
intended to enable the government to determine which aliens have 
entered and left the country, and which have overstayed their visas, is 
currently under development and will rely on BICE investigators to 
locate those who violate the terms of their entry visas.
    All of these efforts attest to the pivotal role of immigration 
interior enforcement in national security and expanded roles of 
investigators in the fight against terrorism. It is important that BICE 
investigators receive training to perform these expanded duties and 
help assure that they effectively enforce immigration laws while 
recognizing the rights of citizens and aliens. It is also important 
that DHS reinforce its management controls to help assure compliance 
with DHS policies and procedures.
                        concluding observations
    Having an effective interior enforcement strategy is an essential 
complement to having an effective border strategy. To be sure, BICE's 
tasks with regard to interior enforcement are considerable given the 
nature, scope, and magnitude of illegal activity. INS faced significant 
challenges in appropriately staffing program areas, providing reliable 
information for program management, establishing clear and consistent 
guidance for working-level staff to do their jobs consistent with the 
goals of the program, and developing outcome-based measures that would 
indicate progress toward the strategy's objectives. With the creation 
of DHS, immigration functions are now in several different bureaus that 
will require enhanced coordination. Addressing these issues are 
important if BICE is to achieve full program potential.
    Mr. Chairman, this concludes my prepared statement, I would be 
pleased to answer any questions that you or other members of the 
subcommittees may have.

    Mr. Hostettler. Thank you, Mr. Stana.
    We will now turn to questions, and the chair recognizes 
himself for 5 minutes.
    Mr. Secretary, in your written testimony you list BICE's 
seven interior Immigration and Customs Enforcement strategy 
items. In that list you do not mention specifically garden 
variety unlawful employment. You speak about issues regarding 
national security businesses, but the garden variety employment 
issue is missing from the list.
    Is that intentional, given Congress' desire in '86 to make 
sure that illegal aliens and employment in this country was a 
priority to be considered by INS?
    Mr. Hutchinson. Well, if you look at the priorities, it 
does refer to respond to community needs as they relate to 
illegal immigration, so many times those types of concerns are 
identified because complaints are received. So there is a 
response. It is measured in terms of the other priorities. For 
example, criminal aliens that pose a danger to society or 
terrorist activities.
    I will also remark that as ICE comes into Homeland 
Security, we are going to be reevaluating priorities, because 
clearly, with the new responsibilities that we have, and with 
the potential for overlap, we want to make sure we reassess and 
work with the Committee in determining the appropriate 
priorities.
    Mr. Hostettler. Very good. And we're open to the issue of 
resources and we'll talk about that a little bit later, of what 
we need to move that garden variety law enforcement for 
employment into those priorities.
    In the '96 Immigration Act, Congress authorized the 
Attorney General to deputize State and local police to help 
enforce immigration laws. Attorney General Ashcroft pursued 
this multiplier effect with a few States. Do you intend to also 
pursue agreement from State and local police departments to 
multiply the effect of your limited number of immigration 
enforcement agents?
    Mr. Hutchinson. The Florida initiative, in which I think 
there was 35 to 50 State law enforcement officers that were 
trained in immigration enforcement, that pilot project has 
worked very well. I would add that I think it was accompanied 
by a 5-week training course. So we are definitely open to 
mirroring that pilot project in Florida with other States and 
developing those partnerships that has to be accompanied by 
adequate training.
    I know that in Alabama they're looking at that, so we're 
open to it. We're just looking at the proper training to be 
able to accomplish that when the right opportunity presents 
itself.
    Mr. Hostettler. Very good.
    Following on that, Mr. Krikorian states in his written 
testimony that traffic stops and arrests are a significant 
opportunity to apprehend those in the country illegally and 
that we should take full advantage of them. That has actually 
been the subject of a hearing that this Subcommittee has 
already held this year.
    Do you agree with the statement that Mr. Krikorian makes?
    Mr. Hutchinson. I absolutely agree with his statement. It 
is important that we enter into the NCIC system, the criminal 
database maintained by the FBI that local law enforcement has 
access to, that the appropriate individuals who are on watch 
lists or who are subject to a final order of removal are 
entered into that system. We will work with the FBI to make 
sure that the proper names are in that system.
    It is a slow and laborious process. We hope to be able to 
accelerate it.
    Mr. Hostettler. Just for your information, in some of the 
testimony we received in that Subcommittee--and the subject of 
the testimony was sanctuary laws--one of the concerns we had 
was that some communities are not allowing their law 
enforcement officials to work directly with INS, and that is 
something this Subcommittee is going to be concerned about and 
will continue to look at. We look for your input in that 
situation as well.
    Let me ask you one other question. What is your opinion of 
the Mexican matricula consular, the card that many banks and 
State and local entities have decided to accept as proof of 
identification of a Mexican national. We have received 
information that there is no security to these documents and 
non-Mexicans are found with these matriculas, sometimes 
multiple matriculas, with different identities.
    Do you think any Government entity in the U.S. should 
accept these cards, and also, do you believe that recognition 
of foreign government-issued identity documents make it more 
difficult to enforce our immigration laws?
    Mr. Hutchinson. It makes it more difficult if they are 
subject to fraudulent use, or they are used as a vehicle to get 
legitimate documents in the United States that can be used to 
get benefits or services or access to facilities they would not 
otherwise have. So clearly, as a sovereignty, the government of 
Mexico has the right to issue such documents, but we want to 
urge them to make them tamper-proof, which is a concern, and 
secondly, to educate American businesses, whether it's banking 
facilities or whether it is the States that render services, 
that they do not use that as a vehicle to allow someone who is 
here fraudulently to reap a benefit they would not otherwise be 
entitled to.
    Mr. Hostettler. Thank you.
    The chair now recognizes the gentlelady from California, 
Ms. Sachez.
    Ms. Sachez. Thank you, Mr. Chair.
    Under Secretary Hutchinson, under the reorganization, what 
agency is going to be in charge of visa processing?
    Mr. Hutchinson. The visa oversight responsibility has been 
transferred by Congress from the State Department to Homeland 
Security. The law says that the visas will be--that our 
responsibility is to exercise, through the State Department, 
the actual physical issuance of the visa. But our 
responsibility is to make sure regulatory training and from an 
oversight standpoint that visas are not issued to people who 
inappropriately come to America and want to harm us. We are 
currently working with the State Department to enter into a 
Memorandum of Understanding as to how to divide those 
responsibilities clearly, in accordance with the congressional 
mandate.
    Ms. Sachez. So as of this moment, there really isn't a 
clear understanding of what the responsibilities of each agency 
is?
    Mr. Hutchinson. Well, at the present time, the State 
Department continues their traditional role of issuing visas 
and reviewing the appropriate lookout list to make sure bad 
people do not get visas, so they continue that responsibility. 
So that function is happening, and it will be transferred to 
the Department of Homeland Security.
    Ms. Sachez. It is my understanding that it has been 2 
minutes or less spent on visa interviews; is that correct?
    Mr. Hutchinson. I do not have the specific time frame for 
that. I think it would probably depend upon the circumstances. 
Some people would have a much more extended interview than 
someone who they would have no reason to suspect, or they're 
satisfied as to their credibility.
    Ms. Sachez. Moving on to the subject of the matriculas, 
what percentage of the matriculas have been found to be 
fraudulent?
    Mr. Hutchinson. I do not have any information on that. I 
would be glad to get back with you, but I do not have that 
information.
    Ms. Sachez. Okay. Also, I understand that the new bureaus 
that have been created for handling various aspects of 
immigration law have been working hard right now to try to 
transition from the old INS. But one concern that has been 
raised on numerous occasions, both within the old INS structure 
and the new bureaus, is the use of racial profiling by Customs 
agents. According to a recent GAO study, more terrorists have 
been found since Customs stopped using racial profiling as a 
technique. Now State and local law enforcement agents are also 
being asked to uphold immigration laws in some situations.
    What kinds of training is being given to ensure that 
they're not using the less reliable method of racial profiling 
instead of using more specific information based type of stops?
    Mr. Hutchinson. Any time immigration authority would be 
utilized by a State and local official it should only happen 
with very significant training. As I mentioned in Florida, 
approximately 50 officers were trained through a 5-week course.
    I would also add that there will be no toleration for 
racial profiling at Homeland Security. We certainly do not 
believe that, in the routine enforcement of our laws, that that 
should be any type of acceptable practice.
    Ms. Sachez. Within the new bureau structure, are the new 
performance measures going to include whether or not terrorist 
arrests are made, based on the changes that are made?
    Mr. Hutchinson. I'm sorry, could you repeat that question?
    Ms. Sachez. Sure. Under the new performance measures, under 
the new bureau structure, are the performance measures by which 
you're going to rate the accuracy and effectiveness of the new 
bureau structure, are they going to include whether terrorists 
are being arrested, those types of statistics?
    Mr. Hutchinson. We're working on the performance measures. 
One, we believe they are very important. Obviously, whenever 
you're looking at the border and the effectiveness there, there 
is a number of measures of effectiveness: one, do any 
terrorists sneak through, or people who go through with 
fraudulent documents. Another measure of performance is how 
long it takes to do inspections, and how long the wait lines 
are. So all of that is a measure of effectiveness because our 
mandate is to protect our borders, but also to not interfere 
with or impede the flow of commerce. So we're going to be 
working to develop appropriate measures of performance.
    Ms. Sachez. It just seems to me that, if that is the goal 
of moving the INS structure under the new bureau structure, if 
one of the main concerns is stopping terrorism, then at least 
those type of statistics would be used in the new performance 
measures.
    Mr. Hutchinson. Certainly that would be a factor to be 
considered.
    Ms. Sachez. No more questions. I reserve the balance of my 
time.
    Mr. Hostettler. The chair recognizes the gentleman from 
Arizona, Mr. Flake.
    Mr. Flake. Thank you, Mr. Chairman. I thank those of you 
for testifying, for providing such ``earth shaking'' testimony. 
[Laughter.]
    Recent press accounts indicate that al Qaeda may be using 
our southern route to sneak into the country. In fact, 
Congressman Jim Kolbe's brother owns a ranch in the southern 
part of Arizona and recently found a backpack with Arabic notes 
written inside. I doubt that Arabic is being taught very much 
in Mexican high schools; it isn't here much. Obviously, this 
may be an issue.
    How seriously is this new agency taking items like this?
    Mr. Hutchinson. Well, seriously enough for me to go to the 
border and meet with Congressman Kolbe and be on those ranches 
that you're referring to. I just returned from a tour of the 
border in Arizona, and I actually examined some of the 
documents that you referred to.
    Clearly, the southern border is a means by which illegal 
immigrants try to come across to the United States, and this is 
not limited to our Latin American neighbors but would also 
include traffic patterns from a variety of other countries. 
There has been instances in which we have stopped Mid 
Easterners who have tried to come across our border. That does 
not mean they are terrorists or have terrorist intentions, but 
it certainly means that a broad variety of national origins 
will use our southern border, as they will use our northern 
border.
    Mr. Flake. I grew up on a ranch in northern Arizona and I 
recall interior enforcement back in the Seventies, quite active 
interior enforcement. It seems that we're returning to some 
semblance of that at least with ICE.
    Several of us are working on a guest worker program, which 
would allow a legal framework for individuals, willing workers 
who want to come through legal check points, through legal 
means, and then return home legally.
    What flexibility does ICE and CBP have to shift focus, if 
we have--as we all know, an overwhelming majority of those who 
come through the southern border simply are coming to work, not 
for any nefarious purpose. What flexibility do these new 
agencies have under one head now to actually shift focus, if we 
have a program, where the southern border won't be as much of 
an issue and there won't be as many illegal crossings but, 
rather, interior enforcement will become more important. I 
guess it's shifting resources from CBP to ICE, and with that, 
again on the employer enforcement, are we gearing up for that 
possible time? I believe, with the meat packing industry, for 
example, we have a system to check more quickly if a Social 
Security number is fraudulent or not.
    Does this new agency envision being able to shift 
resources, manpower, quickly enough once we have a system like 
that in place?
    Mr. Hutchinson. Well, that is very important, for us to 
have the flexibility to respond to new threats, as well as 
changes in policy. So one of the responsibilities and benefits 
of having both Customs and border protection and ICE reporting 
to the same directorate means that we can make sure they're 
effectively coordinated and that we can make sure they're 
responding to those threats.
    Whenever you're talking about the guest worker program, 
that's a policy decision that Congress has to make, but 
certainly we will have the flexibility to adjust to any such 
changes that Congress might dictate.
    Mr. Flake. Mr. Krikorian, do you have any comments on that, 
or thoughts on that?
    Mr. Krikorian. I would question the assumption that a guest 
worker program would actually lead to less need for border 
enforcement, because during the last big guest worker program 
we had with Mexico, the Bracero program, at the height of the 
Bracero program in the 1950's, we actually saw the greatest 
wave of illegal immigration that we had ever seen and wasn't 
matched until 30 years or 40 years later. Because all 
immigration creates more immigration, so a flow of guest 
workers inevitably also creates a flow of illegal immigrants 
accompanying it, because many people who now would want to come 
would not be able to qualify and so the need for border 
enforcement, it seems to me, might actually increase with the 
guest worker program, rather than decrease.
    Mr. Flake. Thank you.
    Mr. Hostettler. I thank the gentleman.
    The chair now recognizes the gentleman from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    First I would direct my initial question to Mr. Danahey, 
and I would point out that I grew up in a law enforcement 
family. As I listened to some of the discussion about profiling 
here and profiling in general, it is my understanding that that 
has been a longstanding traditional practice, a very wise 
practice, that has helped us with our investigations and, in 
fact, would make some of those investigations impossible if we 
did not build a profile of the people we're looking for.
    Is it your belief that you can enforce the law without 
using any type of profiling?
    Mr. Danahey. I believe that you have to establish some 
parameters to work from, that some sorts of profiling actually 
jump out at you. In the case of September 11th, it was 
definitely a specific set of individuals that conducts the 
acts, far different from people we're used to in the United 
States on the norm.
    I think you need to use guidelines to establish parameters, 
so that you have a base to work with.
    Mr. King. Would you accept a definition that certain 
stereotypes are really what we're addressing when we use the 
word ``profile''? I mean, I have used the term profiling in the 
police term, which means this is good investigative work, but 
it's inappropriate to stereotype people by membership in 
groups.
    Mr. Danahey. I don't like the word ``stereotyping''. It 
leads to at least thinking of other things. But I think the 
basic criteria for an individual is identified, which would 
lead one to believe, working through an investigative process, 
that this is the right route to take.
    Mr. King. So, in fact, we may have to do some type of 
profiling, even though we're careful not to make it 
discriminatory?
    Mr. Danahey. Yes, sir.
    Mr. King. Thank you.
    To Mr. Krikorian, as I listened to your testimony--and you 
focused on interior issues with regard to immigration--you 
mentioned that we have three points, that we address 
immigration overseas, I think was the term you used, and I 
would say any foreign country rather than necessarily overseas, 
but the intent is the same. And then also at our borders and 
the third one was interior. Then you focused also on the 
numbers of illegal immigrants that voluntarily leave the 
country.
    I would suggest that, in a perfect world, everyone would 
respect our laws. We first write the perfect laws and then 
everyone would respect them. In a near perfect world, we would 
be able to enforce all of our laws. If we were able to do that 
at the border, wouldn't that ultimately also conclude the 
illegal immigration issue within the interior of the United 
States?
    Mr. Krikorian. Hypothetically, maybe, at least with regard 
to some element of the illegal immigrant flow. In other words, 
those people crossing the border illegally would be able to be 
kept out in some theoretical perfect world, were we able to do 
that. Although, if you talk to any Border Patrol agent, they'll 
tell you that they need interior enforcement in order to do 
their job.
    But, that having been said, some 40 percent of the illegal 
immigrant population actually entered legally. They crossed the 
borders with our permission. They had visas, they came to the 
United States, and then they violated the terms of those visas 
by overstaying, by working without permission, by not going to 
a school they were supposed to be going to. All of those forms 
of violation of the immigration law need interior enforcement.
    The most ideal, perfect, sort of platonic ideal of border 
enforcement, still wouldn't address a substantial part of the 
illegal immigration problem.
    Mr. King. Then, in your estimation, when you look at this 
entire issue of the three areas where we have our enforcement, 
what percentage of our resources would you focus in each one of 
those three--overseas, at the border, and internally?
    Mr. Krikorian. I wouldn't want to come up with a numerical 
percentage. As Mr. Danahey pointed out, we need to find out 
what the mission requires and then budget for it. So the answer 
is I don't have any kind of magic number.
    Mr. King. Thank you, Mr. Krikorian.
    In the moments we have left, Mr. Under Secretary, can we 
get there? Can we get where we need to go to provide safety and 
have secure borders, and secure also the continuity of the 
culture?
    Mr. Hutchinson. I believe we can, but technology has a 
great deal to do with it. So the Congress has mandated an 
entry/exit system, where we can track our foreign guests that 
come in here and know when they leave. This is a technological 
solution to one aspect of the problem. There is not any silver 
bullet, but I believe that we have the right strategy, some of 
which has been articulated here by my colleagues at the panel.
    Where we layer our enforcement to have a filter overseas 
through visa issuance, we have more information in advance on 
people and cargo coming to our country, we have a good 
inspection system at our ports of entry through technology. And 
we have to use technology, whether it's sensors or perhaps even 
drones, to help protect the land between our ports of entry. So 
we can get there, but it's going to take a lot of teamwork 
between what we do and what Congress does.
    Mr. King. I will be happy to work with you. Thank you, Mr. 
Hutchinson, and thank you, Mr. Chair.
    Mr. Hostettler. Thank you, Mr. King.
    The chair now recognizes the gentleman from California, Mr. 
Gallegly.
    Mr. Gallegly. Thank you very much, Mr. Chairman. Welcome, 
Mr. Secretary. It's great to have you there. I had the 
privilege of serving with you for many years on this Committee, 
and I have newfound reason for optimism with your leadership 
dealing with issues affecting the INS, something that has not 
always been a real confidence builder for me.
    As you may remember, back in the mid-90's I was the 
Speaker's Chairman on the Task Force for Immigration Reform. 
During that period of time, we took a trip, which later became 
known as the ``Kromegate'' trip--you may or may not remember 
the specifics of it. But one of the stops on that trip that I 
took, along with seven or eight Members of Congress, was to New 
York's Kennedy Airport, and then also down to Miami's 
International Airport, and then on to the Krome Detention 
Center in Miami.
    One of the things we found at Kennedy in New York and also 
at Miami is that when we had folks coming into the country with 
documentation that was not correct, as immigration processed 
these folks that had a problem, for those that were considered 
to be a low flight risk they would process them in and give 
them a date to appear, which I guess is a common practice.
    The interesting part of those that were considered to be 
low flight risk, both in New York and in Miami, 94 percent of 
those that were processed out as low flight risk flew the coop. 
They never returned. Now, I don't know really what constitutes 
the issue of low flight risk, but I can tell you, quite 
frankly, that didn't seem acceptable to me.
    What are we doing, or what can we do--I know you have a 
detention problem with beds and so on and so forth--but has 
that been tightened up? What are we doing? Why not just put 
them back on the airplane?
    Mr. Hutchinson. Well, first of all, the problems you 
described have led to the fact that we have over 300,000 aliens 
who are under a final order of removal and they have not been 
found and removed. In other words, they have not responded to 
their bond in which they're supposed to appear.
    That is one of the challenges that we face. It is a 
challenge both in terms of legal process--because you asked 
about whether we could immediately remove them, and many times, 
obviously, if they request asylum, if they raise certain legal 
issues, it involves a long legal process. Then you have the 
issue, if you have a high bond, do we have the detention 
facilities to detain them.
    I guess I'm reciting some problems. These are things we 
have to work on, whether you use technology, where you don't 
detain them but you have a stronger basis to track them.
    Mr. Gallegly. Mr. Secretary, correct me if I'm wrong, 
because you're the constitutional lawyer here and I'm not, but 
until such time as they clear Customs, even though they're 
physically in the United States, my understanding is they have 
not technically entered the United States until they have 
cleared Customs. And until they cleared Customs, they do not 
have all the constitutional rights as someone would have who 
has entered the country formally, which would mean the rules 
are changed once you have given them the right to go out and 
return; is that correct? So we wouldn't be denying anyone 
constitutional rights if they didn't have them?
    Mr. Hutchinson. There is a distinction between whether 
they're found in the country, whether they're found at the port 
of entry. There is a difference as to whether they are 
presenting fraudulent documents or whether they present 
themselves requesting asylum. So varying legal rights attach 
under those circumstances.
    One of the things we need to look at is how we can more 
effectively administer all of that program.
    Mr. Gallegly. One other quick question, Mr. Secretary. You 
may not know the answer to this, but I would really appreciate 
it if you would find out for me.
    During the course of that same trip, it was found that--in 
fact, the IG did an investigation after a group of employees 
came up to me with 50 or 60 signatures about how we were being 
give a ``dog and pony show'', how we were lied to by the INS, 
and how they had cleaned up the detention center and released 
hundreds of people into the streets, high risk, with 
communicable diseases, from Haiti and other places, and also 
that there had been a couple hundred put on buses and moved 
throughout Florida to make it look like the Chrome Detention 
Center was being run pristinely. Of course, I thought these 
were disgruntled employees, but I turned it over to the IG.
    What started out to be a 90 day process ended up taking a 
couple of years, with seven of Michael Bromwich's top people 
and costing probably several million dollars. There were 
several people that were terminated or demoted, and so on and 
so forth, and then, of course, the board, whatever you call 
that board, reinstated most of them.
    But there was one individual by the name of Dan Cadman. I 
don't know if that name rings a bell or not, but that's the 
name I would like for you to check for me. Mr. Cadman was the 
director of operations in Miami, who was principally 
responsible for orchestrating this whole issue. He accepted a 
voluntary demotion in lieu of prosecution because of destroying 
documents that were under subpoena, purging records--actually 
deleted. He didn't purge. He got caught on that one--and lying 
to Congress. He accepted voluntary demotion.
    The IG had stated that, under no circumstances, should this 
individual ever be put in a position of trust or managing 
people. I didn't hear any more about Dan Cadman until about the 
12 or 13 of September, 2001, a couple of days after the 
incident on 9/11, only to find out that we found Dan Cadman 
working at INS in charge of the anti-terrorism group for INS. 
Needless to say, that raised a few eyebrows with some of my 
colleagues and myself.
    I would like to know where Mr. Cadman is right now with the 
INS. Someone had told me they kind of shuffled him off to a 
high level position in Spain or somewhere. But I would be 
interested to know that.
    Mr. Hutchinson. We'll be happy to report back to you.
    Mr. Gallegly. Thank you, Mr. Chairman.
    Mr. Hostettler. I thank the gentleman.
    The chair now recognizes the gentlelady from Tennessee, 
Mrs. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman, and thank you to 
all of you for being here, for your well-prepared testimonies.
    I think we all want to do what we can to help you move to a 
plan of action. It sounds as if you have defined a problem, and 
it would be our hope that we can assist you in moving to action 
to restore the trust of the American people, that, indeed, we 
are addressing illegal immigration and the problems it brings.
    I do have a couple of questions for you. Mr. Stana, thank 
you for your well-prepared report. One thing I do want to ask, 
have you all developed any framework for coming to what 
fraudulent documentation and illegal immigration is costing 
American business each year?
    Mr. Stana. No, we don't have a figure on what it's costing 
American business, but it is a large problem with employers on 
verification of eligibility to work.
    As was pointed out earlier by others on this panel, it is a 
big industry to create false documents, and many of them are 
very good. It is not always easy to determine who is eligible 
and who isn't. So that's an issue.
    The other issue is that oftentimes employers don't want to 
know. It's a source of cheap labor, so they'll look to the card 
and say ``that looks good to me'' and hire the individual. But 
I don't have a figure for you.
    Mrs. Blackburn. Is anybody taking any steps to come to a 
figure, or are we just going to let that lay out there and say 
ignorance is bliss on the issue?
    Mr. Stana. I'm not aware of anyone coming to a figure on 
that. INS had a pilot program to verify authorization 
documents. I don't know where that is right now. A report was 
expected to be issued a year ago on how successful that program 
was. I haven't seen that report yet.
    Mrs. Blackburn. Okay. Thank you.
    You also note that the INS in their time had noted that 
they didn't have sufficient staff. The general things we hear 
is we don't have enough staff, we don't have enough time, we 
don't have enough money.
    Now, my question to you and to Mr. Secretary is, do we have 
a workable plan of action that will take us toward addressing 
what needs to be done, and do we have that on a time frame, not 
just that it's out there but do we have a date certain, some 
benchmarks and some timelines for----
    Mr. Stana. What I would suggest happen here--and Mr. Under 
Secretary can answer also--you have to answer this at two 
levels. First, we're undergoing a transformation from the old 
INS to the new DHS. This is a new day. Top leadership needs to 
drive the change, communicate a coherent mission, reset the 
priorities--which Mr. Hutchinson said they're in the process of 
doing, make sure everyone knows what their job is and what the 
timelines and the goals are, and encourage employee 
involvement. That's at the upper level.
    At the more immediate level, I think steps have to be taken 
to find problems before they become bigger than they start out 
to be. We've seen instance after instance where that's not done 
and small problems become big. You have to fix the information 
technology, you have to fix the guidelines, the roles, the 
reward structure, and finally, you have to come up with better 
performance measures that measure outcomes, not just activity.
    Mrs. Blackburn. My question is, and not to interrupt but to 
move along, where are we in that process? Do we have a 
timeline, do we have that plan of action, and are we moving 
forward satisfactorily on that?
    Mr. Hutchinson. I believe that we are. The Department has 
been in existence with these agencies for less than 45 days, 
and we're moving aggressively in that regard. Part of it is 
money. Obviously, the '04 budget we believe is a significant 
investment, with 355 new positions.
    The second part is strategy. The third part, as was 
mentioned, is information technology. There is a timeline 
specifically that we're going to have the information 
technology in place to accomplish these goals.
    Finally, on the priorities, there is a timeline in place to 
reassess those priorities.
    Mrs. Blackburn. One other question for you, Mr. Secretary.
    I'm new to this body this year, but I came from the State 
Senate in Tennessee where I led the fight to close the loophole 
that illegal aliens were using to get valid Tennessee drivers 
licenses. You mentioned in your testimony that one of the keys 
to preventing illegal aliens is the drivers license. What 
specifically are you all going to do, in conjunction with our 
State and with the AAMVA, to work to prevent illegal aliens 
from getting valid drivers licenses?
    Mr. Hutchinson. Well, I would say there are two parts to 
that. One, I think we need to develop a system in which drivers 
licenses are not driving every service that is delivered or 
access to the voter rolls or other benefits that might be 
received. And secondly, we have to work with the States in 
order to accomplish this. Your leadership was critical in 
Tennessee, and I hope that's a model for other States. We are 
certainly pushing all across the board for more tamper-proof 
documents. Even Social Security cards. I met with Jo Anne 
Barnhart, the Commissioner of Social Security, and there were a 
lot of discussions there as to how to eliminate that as an 
aspect of fraud. So there is much work to be done, but we are 
working in partnership with the States and other agencies to 
reduce that type of fraud of all documents.
    Mrs. Blackburn. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Hostettler. I thank the gentlelady.
    I will now move into a second round of questions that I 
have for a few of the other witnesses, and the other Members 
can take part as well.
    First of all, Mr. Krikorian, you mentioned the low numbers 
of interior agents assigned to worksite enforcement and other 
functions. There was a discussion earlier about the numbers and 
the implementation of the right number of agents. But, given 
the system today, with its strengths and its weaknesses, in 
rough terms, how many agents do you think would be needed to 
completely enforce our immigration laws.
    Mr. Krikorian. I would say that Mr. Danahey's suggestion 
would be a starting point, double the number of agents from 
2,000 to 4,000, and then see if it's adequate. I mean, 2,000 
agents to enforce a whole panoply of immigration laws across 
the entire United States, when there are 33 million foreign-
born people in the United States, is clearly inadequate.
    I don't have a magic number, but I would suggest double it 
and then see if it's enough. It may well not be. I mean, in a 
sense, Mr. Chairman, part of the problem is that I think we're 
not quite sure how much we, as a people, Congress, the 
Administration, aren't really quite sure how much we want to 
spend on this, but we aren't really matching our means to our 
goals. In other words, if we want an enormous flow of people 
from overseas, it's going to require vast amounts of money 
being spent every year indefinitely in order to make sure 
that's managed properly.
    If the amount of money that we need to spend is something 
more than we're comfortable with, we need to rethink whether 
that enormous flow of people from overseas is something we 
really want to continue.
    Mr. Hostettler. I think that's an excellent point. That's 
why these hearings are vitally important, because the Chairman, 
at least, wants the American people to know how much this is 
going to cost, whether it's enforcement of our laws or the 
facilitation of immigration and naturalization to this country 
and all that that entails. I think the American people should 
at least know what it's going to cost for Congress and the 
Executive branch to execute our constitutional requirements 
with regard to immigration and naturalization. As you pointed 
out, doubling it might be a good start, but that might not be 
enough.
    Mr. Danahey, you state in your written testimony that 
immigration law enforcement officers need ``general arrest 
authority,'' something Congress has authorized but has never 
been implemented by any Administration. Could you explain what 
general arrest authority is and give an example or two of how 
it would be undertaken?
    Mr. Danahey. Sir, if I could, I would like to call on one 
of the individuals from immigration who is with us today behind 
me, Special Agent Kevin Ryan. I believe he could answer that.
    Mr. Hostettler. Without objection, that would be fine.
    Mr. Danahey. Special Agent Ryan.
    Mr. Ryan. Our understanding of general arrest authority----
    Mr. Hostettler. Mr. Ryan, could you give your full name and 
your title, please, for the record.
    Mr. Ryan. My name is Kevin Ryan. I'm a Special Agent with 
INS, or former INS, in Buffalo, NY. I'm the FLEOA President for 
INS.
    Mr. Hostettler. And you are now with ICE?
    Mr. Ryan. Yes, with ICE, in Buffalo.
    Mr. Hostettler. Thank you. Please proceed.
    Mr. Ryan. General arrest authority was granted in the 1991 
Immigration Act for immigration officers to arrest for 
nonimmigration-related offenses that occur in our daily 
activities investigating other Federal laws.
    We have never had that implemented. I know FLEOA has asked 
for that in at least six other times that we've testified 
before various Committees, to have general arrest authority. 
It's a liability issue for agents, because we are assigned to 
other task forces. We are deputized and that kind of covers us, 
but in many cases agents will go out on a task force or be 
assigned to a task force and that process of being deputized is 
not always fully implemented prior to going out and we are 
making arrests for other than section 274 of the Immigration 
Act, nonimmigration-related offenses.
    Mr. Hostettler. For the layman, hypothetically, could you 
give an example?
    Mr. Ryan. A drug arrest. I have no title XXI authority. If 
I was assigned to a drug task force and I wasn't deputized and 
was executing a warrant for a XXI violation, to my 
understanding I'm kind of in a gray area. That's been a concern 
of our Members that is constantly brought up.
    I don't know all the legal definitions that go with general 
arrest authority, but I know it's a concern to our Members.
    Mr. Hostettler. Because while executing a warrant with 
regard to immigration law, and you see another infraction--is 
that what you're talking about?
    Mr. Ryan. Well, again, immigration assists in many local 
and State task forces, or a Federal task force, and State, and 
we will execute arrest warrants other than for title VIII 
authority, which is the Immigration and Naturalization Act, 
which we have jurisdiction for under our Federal Code of 
Regulations.
    When we step outside of that, without having general arrest 
authority, again, I don't know the exact legal definition, but 
it has been told to me that if I step outside of title VIII, I 
don't really have authority unless I've been deputized to do 
that.
    Mr. Hostettler. Okay. And without that deputization, what 
happens in that hypothetical situation with the drug----
    Mr. Ryan. Well, it would be a liability to me if something 
were to happen that the arrest would not proceed normally and 
we took other action, and that would give that individual an 
ability to come back at me and say, you know, Special Agent 
Ryan did not have authority to arrest me. That's my 
understanding. Again, it's not a legal definition, or I don't 
know the legal definition. But that is the understanding that's 
been told to me.
    Mr. Hostettler. Very good.
    The gentleman from Iowa, Mr. King?
    Mr. King. No questions, Mr. Chair.
    Mr. Hostettler. The gentlelady from Tennessee, Mrs. 
Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman. I do have just a 
couple more things.
    Mr. Danahey, you laid out seven steps that you felt would 
be necessary for you all to perform to the best of your 
abilities in addressing immigration situations. Step number 
four is interior enforcement, and you spoke of the SEVIS 
program in there. We had a hearing on that last week and heard 
from some folks that feel like maybe that's not working quite 
as well as it should be and they have spent $38 million on it.
    If you could, can you speak briefly to SEVIS and to what 
you see as either the success or failure and possibly what we 
should do to address that?
    Mr. Danahey. I believe the problem with SEVIS is manpower, 
once again, and the ability to follow up on the individuals who 
aren't where they're supposed to be once they register for the 
program.
    Mrs. Blackburn. Okay.
    Mr. Hutchinson. Could I add to that a little bit?
    Mrs. Blackburn. Please do.
    Mr. Hutchinson. First of all, the SEVIS program was 
implemented through a private contract, so we rely technically 
upon a contractor--in this case, EDS--in order to oversee the 
system. There were some glitches in it, so we're working with 
our contractor, the private sector, to remedy that. I think 
we're making progress.
    The second part of it I would just add, is that it's a good 
system, it's the right strategy to get this information flow on 
students who might not show up under the visas.
    To illustrate the information flow, since December the 
universities have called in 2,000 names of students who had 
visas that did not show up for their education, for their 
classes. They call in the toll-free number. So then we have to 
process those 2,000 names and follow with the leads.
    We have prioritized those and are going after, first of 
all, the countries of concern. We have issued out 180-some 
leads to follow up from an investigatory standpoint. So we need 
to make progress both in terms of the system, making sure it 
operates well for the universities, but secondly, to make sure 
that we have the capability to handle the information that 
comes in and responsibly address any overstays of visas or 
misuse of the visa authority.
    Mrs. Blackburn. Excellent. Thank you very much.
    Mr. Secretary, you mention the Absconder Apprehension 
Initiative in your written testimony. If you would speak to 
that for just a moment, how has that helped you to apprehend 
some individuals and where are we with that? How many are on 
the list?
    Mr. Hutchinson. Well, there is really two parts to that. 
There's the criminal alien removal program, which is much 
easier because they're in custody, have finished their prison 
sentence, they're an illegal alien and we take them before they 
leave and remove them from the country. That is something that 
I think we are addressing fairly effectively.
    The second part of it is the 300,000-plus that have a final 
order of removal and do not show up to be removed. We have our 
alien apprehension initiative in which we put resources toward 
that. We first have to figure out if they actually have left 
the country, because they might have a final order of removal 
and, just because we didn't remove them, they still might have 
left. They could have gone up through Canada and left and we 
just have no record of it. So we have to determine whether 
they're actually here or not, and then determine where their 
location is and go through a very lengthy investigation to find 
them.
    We are looking at ways to improve that, partnering with our 
United States Marshal Service, having a Top 10 list to go after 
the most dangerous, and publicize it more. And then the 
resources that are being requested in the '04 budget will help 
us to move further along that initiative.
    Mrs. Blackburn. Thank you. Your task is daunting and I 
thank you for your time, all of you.
    Thank you, Mr. Chairman.
    Mr. Hostettler. I thank the gentlelady.
    Once more, I want to thank the panel for your attendance 
today and your flexibility in this. As the gentlelady from 
Tennessee said, your task is daunting, Mr. Secretary, and all 
of your inputs today have been very much appreciated.
    Without objection, the chair enters into the record a 
report by Ms. Sachez of California by the Mexican-American 
Legal Defense and Education Fund, regarding civil rights 
concerns within the Department of Homeland Security.
    [The report follows in the Appendix]
    Mr. Hostettler. Likewise, without objection, the 
Subcommittee will have five legislative days to enter any 
statements or questions into the record.
    The business of the Subcommittee being completed, this 
Subcommittee is adjourned.
    [Whereupon, at 10:47 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

               Prepared Statement of Chairman Hostettler
    Last year, Congress enacted the Homeland Security Act, historic 
legislation creating not just a new department in the executive branch, 
but a new home for our newly structured immigration system. Now that 
the immigration functions have transferred into the Homeland Security 
Department, we must closely oversee the transition to ensure that our 
immigration laws are strictly enforced and that our immigration 
benefits are fairly administered.
    Since we are at this immigration crossroads, we have the perfect 
opportunity to, as accurately as possible, determine what resources are 
needed to administer and enforce our current immigration laws. The 
Homeland Security Act required that the immigration services bureau 
receive a budget separate from that of the immigration enforcement 
bureau. This will help each bureau better manage its mission and help 
us better determine the proper amount of resources needed by each.
    Subsequent to the Homeland Security Act being signed into law, the 
new department reorganized enforcement functions into two categories--
the border and the interior. The Department combined the Customs 
interior enforcement functions with the INS' investigations; detention 
& removal; intelligence; and the deportation attorney corps to create 
the Bureau of Immigration & Customs Enforcement (BICE). The Department 
also combined the Customs border functions with the INS' Border Patrol 
and inspections to create the Bureau of Customs and Border Protection 
(BCBP). This hearing focuses on the interior bureau, ICE, its 
transition into the new department, and its resources.
    For example, in the Justice Department Inspector General's recent 
report, ``The Immigration and Naturalization Service's Removal of 
Aliens Issued Final Orders,'' the Inspector General found that aliens 
with final orders of removal who are not detained are rarely deported. 
Taking a sample of non-detained aliens, the Inspector General found 
that the INS removed only 13 percent of non- detained aliens with final 
removal orders. Within the sample, only 35 percent of aliens with 
criminal records were removed. Finally, only three percent of non-
detained aliens with final removal orders who were denied asylum were 
removed. The Inspector General also selected a sample of non- detained 
aliens with final removal orders from countries that the State 
Department has identified as sponsors of terrorism. The Inspector 
General reported that the INS removed only six percent of this 
population. In sharp contrast, 92 percent of detained aliens with final 
removal orders were removed according to the Inspector General. The 
INS' typical response to such findings has been that it lacks the 
resources to remove more aliens with final removal orders.
    For too long, the former INS complained that it could not 
adequately do its job because the agency did not receive enough 
resources from Congress. That practice of buck-passing needs to end. In 
a letter dated June 21, 2002, this Subcommittee specifically asked the 
former INS what resources it needed to enforce our immigration laws, 
but the agency was utterly unresponsive in its October 21, 2002 
response.
    This new department requires a new attitude. The American people 
want our immigration laws enforced. We want the Bureau of Immigration 
and Customs Enforcement to succeed, but it needs to help us if we are 
to be of help. When we ask what resources the agency needs to fully 
enforce all of our immigration laws, we need an honest answer. 
Otherwise, we cannot attempt to authorize and appropriate sufficient 
funds. If the new agency continues INS' practice of being unresponsive, 
it should not complain that Congress under-funds the agency. Likewise, 
if Congress is told what resources are needed but falls short on 
authorizing and appropriating funds to the BICE, Congress should not 
complain that the agency is not adequately enforcing the laws. But more 
important, if Congress does not fully fund BICE, Americans will remain 
unprotected from future terrorism attacks.
    The purpose of this hearing is to examine the transition of 
immigration enforcement into BICE, explore the capabilities and 
limitations of BICE given the current resources available to the 
agency, and determine what resources would be needed to fully execute 
our immigration enforcement laws.

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

         Prepared Statement of the Honorable Sheila Jackson Lee
    I will start by expressing my desire to support the Bureau of 
Immigration and Customs Enforcement, particularly with respect to it's 
vital role in the war against terrorism. I will help in any way I can. 
The transition from the former Immigration and Naturalization Service 
into the Bureau of Immigration and Customs Enforcement should be 
undertaken so as to ensure effective and fair enforcement, while 
minimizing disruptions and delays. It also is necessary for the Bureau 
to pursue its objectives without violating the civil rights of the 
immigrants in our country.
    For example, I would like to see an end to the special registration 
program. This program is supposed to identify dangerous aliens in our 
midst. In fact, though, it substitutes national origin/racial/religious 
profiling for effective law enforcement based on intelligence 
information. Our nation will not be made more secure by requiring 
innocent immigrants to report to INS offices to ``register,'' only to 
find themselves subject to arbitrary arrest, detention, abuse and 
possible deportation.
    The Homeland Security Act addresses the need for internal oversight 
by creating a civil rights officer and a privacy officer, but it does 
not go far enough in granting authority to these officials to 
effectively protect civil rights and liberties. Such authority is 
vitally needed.
    The Administration is trying to keep certain detainees from having 
access to counsel by labeling them ``enemy combatants.'' In the case of 
Jose Padilla, the courts have recognized this as unconstitutional and 
required the government to let him seek counsel. Also, the military 
tribunal regulations prevent defendants from seeking their own counsel; 
they must choose from a pre-approved list of lawyers.
    The Administration has employed extreme tactics in the war against 
terrorism, such as the surveillance provisions of the USA Patriot Act, 
secret hearings, interrogations, secret wiretaps, and prison camps, yet 
we still hear of new terror threats.
    In establishing the Homeland Security Department, the President 
moved existing agencies into a new cabinet department and did nothing 
to fix the problems that exist in those agencies. For example, he did 
not reform our traditional lookouts, the FBI and CIA, which failed to 
analyze the clues they had regarding September 11.
    Officials within your Bureau need to understand immigration policy, 
recognize the importance of both adjudications and enforcement, and 
work to ensure the necessary coordination of the separated 
adjudications and enforcement functions.
    I also hope that the Bureau deals with the management problems that 
plagued the former INS and prevented it from functioning effectively. 
This requires first and foremost a visionary leadership, which must be 
coupled with clear and uncompromising chains of command that are 
understood and honored.
    Lastly, I strongly believe that state and local police should not 
be used to enforce immigration laws. These officials are not trained in 
the complicated field of immigration law and should not be expected to 
perform immigration duties in addition to their already demanding job 
responsibilities. When put in this untenable posture, experience shows 
that state and local officials too often default to racial profiling 
instead of objective standards when they decide who to question about 
immigration status.
    Thank you.

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

     Prepared Statement of The Mexican American Legal Defense and 
                     Educational Fund (``MALDEF'')
    Civil Rights Concerns Within the Department of Homeland Security
    The Mexican American Legal Defense and Educational Fund 
(``MALDEF'') is a national, non-profit, non-partisan organization 
dedicated to defending the civil rights of the more than 37 million 
Latinos living in the United States.
    MALDEF is concerned about the Department of Homeland Security 
(``DHS'') and civil rights violations that could occur if the civil 
rights protection is not a priority in the development of the new 
agency.\1\ The new DHS includes all prior functions of Immigration and 
Naturalization Services (``INS'') and the U.S. Customs Service and is 
slated to be up and running by March 1st. The mission of the DHS is to 
fight terrorism. With all INS functions subsumed into the DHS, the 
effect will be to look at all immigrants, including millions of legal 
immigrants, as suspected terrorists, instead of who they really are.
---------------------------------------------------------------------------
    \1\ For more information, contact Katherine Culliton, Immigrants' 
Rights Attorney, in our D.C. office at (202) 293-2828 x 14.
---------------------------------------------------------------------------
    As discussed herein, in this context, we are concerned about civil 
rights issues, such as racial profiling, human rights violations at the 
border, and the use of state and local police to enforce federal 
immigration laws. We are also concerned about our failed immigration 
policy, which has resulted in a complete lack of legal recognition of 
millions of immigrants who are the backbone of the U.S. economy.\2\

    \2\ See for example: Northeastern Univ. Center for Labor Market 
Studies, Immigrant Workers and the Great American Job Machine: The 
Contributions of New Foreign Immigration to National and Regional Labor 
Force Growth in the 1990s (Prepared for the National Business 
Roundtable, Wash. D.C., August 2002). This groundbreaking study found 
that new immigrants made up more than \1/2\ of the growth of the 
nation's entire civilian workforce between 1990 and 2001. Among other 
findings, Northeastern University concluded that: ``The findings in 
this research report on the role of immigrant labor in meeting the 
employment needs of the nation's employers, especially in the private 
business sector, deserve the careful attention of the nation's and 
states' economic policy makers, the business community, organized 
labor, and state and local workforce development boards. At no time in 
the past 90 years was the nation so dependent on immigrant labor to 
meet its growing need for labor, especially among male workers, whose 
native supply barely increased in the past decade and actually declined 
in a number of regions and states . . .'' Summary of Findings, pp. 38-
43 @ Sec. viii.

  ``A fairly high fraction of these new immigrant workers, especially 
in less skilled occupations, are undocumented workers. . . . Our 
national immigration policies have largely been a failure in reducing 
undocumented immigration, and our work force needs are being met by a 
group of workers who possess little rights . . .'' Sec. x.
        <bullet> LAmong other measures, we strongly suggest that the 
        new Undersecretary of Border and Transportation Security, Asa 
        Hutchinson, and the new chief of immigration services, Eduardo 
        Aguirre, neither of whom have a background in immigrants' 
        rights, enlist the help of high-level aides with backgrounds in 
        civil rights and immigration services issues. Otherwise, our 
        customs agents and border patrols are likely to commit grave 
        violations of the rights of immigrants, which will do nothing 
        except undermine national security.

        <bullet> LWe need to count on the cooperation of everyone--
        including immigrants--to win the war against terrorism, and 
        this can be done through a DHS based upon fairness, teamwork 
        and effectiveness, instead of the type of random harassment of 
        immigrants' rights that we have seen occurring when our system 
        of checks and balances has been weakened.

        <bullet> LFinally, for the reasons discussed herein, including 
        the need to ensure our economic and national security, we urge 
        this Congress to consider legalization of the 8-9 million 
        undocumented persons living and working here in the U.S.

    1. LRacial profiling is unconstitutional\3\ and has long been a 
serious problem among INS officials, especially border patrol 
officials. Examples of ``a pattern of 'selective enforcement' that has 
undermined the rights of citizens and legal residents and terrorized 
the larger [Latino] community"\4\ include:
---------------------------------------------------------------------------
    \3\ Investigating Latinos (or anyone else) based on race/ethnicity 
while enforcing immigration laws is unconstitutional. See, e.g., 
Carrasca v. Pomeroy, No. 00-03590 (D.N.J. Dec. 10, 2001); No. 02-1127 
(3rd Cir., Feb. 18, 2003)(www.ca3.uscourts.gov/opinarch/021127p.pdf.).
    \4\ The Mainstreaming of Hate: A Report on Latinos and Harassment, 
Hate Violence, and Law Enforcement Abuse in the 90s (NCLR, Nov. 1999) @ 
pp. 21-22.

        <bullet> LKentucky, 2002-2003. Amidst a series of illegal INS 
        raids performed without proper warrants against Latinos, 
        including citizens, a Latino services center is told by the INS 
        District Director that it must provide immigration status 
        information about its clients. \5\
---------------------------------------------------------------------------
    \5\ Somos inmigrantes, no terroristas 2 Hoy No. 12, pp. 1-2 
(Louisville's Spanish Newspaper, Feb. 14, 2003).

        <bullet> LWith the recent boom in the Latino population across 
        the South, highway patrols are stopping Latinos, especially new 
        immigrants, and waving through Anglos. This type of racial 
        profiling occurs at checkpoints as well as through normal 
        highway patrols, which stop and harass Latinos based on race/
        ethnicity and then check their immigration status. \6\
---------------------------------------------------------------------------
    \6\ See, e.g., State of Georgia Public Hearings on HB851 (Nov. 18, 
2002)(testimony that Latinos stopped at checkpoints while Anglos were 
waived through without question); J. Elliston, J. Elliston, ``Busting 
Trust? Latino Leaders want assurances that a new INS squad won't prompt 
racial profiling by local police,'' Independent Weekly (May 2, 2001), 
Independent Weekly (May 2, 2001), www.indyweek.com/durham/2001-05-02/
triangles.html.; See also Discussion of racial profiling and state and 
local police enforcement of federal immigration laws, Sec. 2, infra.

        <bullet> L``August 1999, Orange County, CA. Orange County 
        Sheriff Deputies allegedly harass Latino day laborers gathered 
        at a strip mall by barring them from business, using ethnic 
---------------------------------------------------------------------------
        slurs, and gave them tickets for loitering.

        <bullet> L``July 10, 1999, Wichita Falls, TX. According to news 
        reports, immigration officers broke down the front door of a 
        Hispanic family's home, brandished firearms, and terrorized 
        them, during a 'routine' attempt to round up undocumented 
        immigrants in their neighborhood.

        <bullet> L``February 1998, Seattle, WA. In a raid at Steeler 
        Manufacturing, INS agents detained 10 Latino workers. With one 
        exception, all were legal residents or U.S. citizens. One 
        citizen, Raul Chaves, was handcuffed and detained. Agents 
        finally released him when a friend brought his birth 
        certificate to the workplace. According to case law, ethnic 
        appearance alone does not constitute 'reasonable suspicion' 
        that a person is undocumented. . . .

        <bullet> L``October 20, 1997, Elba, NY. Sergio Cordoba, a 
        permanent resident-and a supervisor at a farm located just east 
        of Buffalo-witnessed immigration agents descend on Torrey 
        Farms, searching fields and packing sheds. The agents 
        handcuffed all workers who ``looked'' Latino without 
        specifically interrogating them as to their immigration status. 
        The New York Times reported that the agents knocked down doors 
        and wrestled people to the ground, despite the fact that the 
        latter offered little resistance. . . .

        <bullet> L``July 9, 1997, Portland, OR. INS agents in unmarked 
        vehicles began arresting almost fifty Latino day laborers who 
        were waiting for work on street corners along East Burnside 
        Street. The agents did not identify themselves, and arrested 
        the majority of people without asking questions. . . . Only 
        Latino men were arrested. Other people at the scene, including 
        a light-skin Mexican, were not even questioned.''\7\
---------------------------------------------------------------------------
    \7\ The Mainstreaming of Hate, supra. n.3 @pp.21-22.: A Report on 
Latinos and Harassment, Hate Violence, and Law Enforcement Abuse in the 
90s (NCLR, Nov. 1999) @ pp. 21-22.

    As we work to secure our borders, including ports of entry such as 
airports and seaports, \8\ we must ensure that the DHS is subject to 
Congressional oversight and appropriate regulations, in order to ensure 
that basic American principles of equality and freedom from 
discrimination are safeguarded in the process. Otherwise, our resources 
will be diverted from finding real terrorists, to targeting and 
punishing immigrants based on perceptions about race and ethnicity, 
which are at best unreliable and at worst highly damaging to individual 
---------------------------------------------------------------------------
rights as well as national security.

    \8\ Note that visas issued overseas will continue to be issued by 
the Department of State; however, in this respect the State Department 
will be subject to DHS supervision. Sec. 428, Homeland Security Act of 
2002, P.L. 107-296, 116 Stat. 2135 (Nov. 25, 2002).

  The State Department consular officials who adjudicate overseas visa 
applications, and higher-level officials who make policy for them, have 
not been immune to racial profiling. See Olsen v. Albright, 990 F. 
Supp. 31 (D.D.C. 1997). In Olsen v. Albright, a Brazilian consular 
officer contested his termination for refusal to adjudicate 
nonimmigrant visas on basis of factors such as applicant's race or 
national origin. Two types of policies were discriminatory-one that 
used general descriptions such as ``looks poor'' and ``looks rough,'' 
and another that named Arab, Chinese and Koreans residing in Brazil for 
additional scrutiny because they were thought to engage in ``major 
fraud.'' The Court compared such policies to the terrible error 
committed against Americans of Japanese ancestry, denounced them as 
discriminatory and unconstitutional, and found that in the Brazilian 
consulate case, ``the Consulate's visa policies stand in direct 
opposition to the progress this country has made in eliminating 
discrimination in the context of immigration law.'' 990 F. Supp. 39.) 
See also 962 F. Supp. 5 (1997)(State Dept. requested to provide further 
information about profiling scheme)(whistleblower case apparently 
settled).
        <bullet> LMALDEF urges Congress to ensure that the DHS, 
        including the Directorate of Border and Transportation 
        Security, is subject to clear and enforceable regulations 
        designed to prevent racial profiling, investigate instances of 
        its occurrence, and provide for remedies to correct and 
        compensate for racial profiling.

        <bullet> LCongress must also ensure adequate training and 
        oversight of all officials involved in immigration enforcement 
        and services, as well as border and other security officials, 
        to ensure against the tendency to investigate and prosecute 
        based on race, ethnicity, national origin and immigration 
        status,\9\ instead of using objective criteria to ensure our 
        collective security in this multicultural democracy.
---------------------------------------------------------------------------
    \9\ The Leadership Council for Civil Rights (``LCCR'') reported 
that, according to a study conducted by the Arizona Attorney General's 
Office, ``local police and U.S. Border Patrol Officials implementing 
Operation Endeavor 'without a doubt . . . stopped, detained and 
interrogated [Chandler residents] . . . purely because of the color of 
their skin.' Similarly, in Katy, Texas, the INS and officers from the 
Katy Police Department conducted a joint operation whereby they stopped 
and detained cars driven by individuals of 'Hispanic appearance,' 
conducted street swaps in which Hispanics were the only ones targeted 
or questioned, and undertook searches of Hispanic residents.'' Justice 
on Trial: Racial Disparities in the American Criminal Justice System 
(LCCR, 2000) @ Ch. I, Race and Police, p. 4. The LCCR also reported 
that: ``Overall, nearly three-quarters (73.5%) of all those deported by 
the INS are of Mexican origin, according to INS statistics, even though 
Mexicans constitute less than half of all undocumented persons in the 
United States. Hispanics constitute approximately 60% of undocumented 
persons, but well over 90% of those subjected to INS enforcement 
actions are Hispanic.'' Id.

        <bullet> LAlso, now that the INS is no longer under the 
        Department of Justice, the Border & Transportation Security 
        Directorate (as well as the Immigration Services Division) must 
        work closely with and be accountable to the Civil Rights 
        Officer to be appointed as part of the new Department of 
        Homeland Security. Furthermore, DHS-wide accountability to an 
        independent Inspector General authorized to investigate any 
        civil rights, due process, civil liberties and/or human rights 
---------------------------------------------------------------------------
        violations is essential.

    2. LThe use of state and local police to enforce immigration laws 
leads to higher incidences of racial profiling and other abuses of due 
process and civil rights. Until recently, the Justice Department agreed 
with the Supreme Court \10\ that the power to enforce immigration laws 
rested exclusively with the federal government.\11\ However, Attorney 
General Ashcroft's statements during a press conference in June 2002 
confirmed the existence of a new DOJ opinion. Ashcroft stated that the 
DOJ now believes that state and local officials have some degree of 
``inherent authority'' to engage in immigration enforcement. The ACLU 
Immigrants' Rights Project prepared a Freedom of Information Act 
(``FOIA'') request for a copy of Attorney General Ashcroft's DOJ 
opinion that would overturn American constitutional law, \12\ but to 
date the DOJ has refused to turn over documents in response to the FOIA 
request. Because we do not have any information as to the basis of his 
opinion, we are uncertain as to what legal basis Attorney General 
Ashcroft might have to assign immigration law enforcement functions 
away from the federal government.
---------------------------------------------------------------------------
    \10\ See, e.g., De Canas v. Bica, 424 U.S. at 351 (1976) at 354. 
(``The power to regulate immigration is unquestionably exclusively a 
federal power.'')
    \11\ See Memorandum Opinion for the United States Attorney Southern 
District of California, Assistance by State and Local Police in 
Apprehending Illegal Aliens (DOJ, Feb. 5, 1996)(state and local police 
may assist only in cases of criminal violations of federal immigration 
laws, under the circumstances of a Terry stop; or in cases of 
emergency, if a special deputization has been undertaken by Justice and 
supervised by federal officials; or if an exceptional memorandum of 
understanding has been agreed to, in accordance with special provisions 
of the 1996 federal immigration law reforms).
    \12\ See Michael Wishnie, Devolution of Immigration Power, Equal 
Protection and Federalism, 76 N.Y.U.L. Rev. 493 (May 2001).
---------------------------------------------------------------------------
    State and local police are not empowered to enforce or involve 
themselves in federal immigration laws because such plenary power rests 
exclusively with the federal government. State and local police are not 
trained in immigration law, and case after case has proven the tendency 
of untrained officials to use racial profiling rather than objective 
standards in their quest for immigration law enforcement. We know of 
numerous cases in which Latinos have been stopped, questioned 
aggressively, intimidated and arrested because state and local police 
have presumptively acted on their misguided hunches about their 
immigration status.\13\ As this Congress and Administration are well 
aware, Latinos are now the largest minority in the United States, and 
the great majority of Latinos are here legally-in fact they are 
fighting our wars, defending our national values, contributing to the 
strength of the American family, and acting as leaders in our 
government and business communities. Of course, Hispanics enjoy the 
right to freedom from discrimination the same as any other American, 
and must not be subject to racial profiling by state and local police. 
Furthermore, although state and local police can and should assist in 
national security matters, in the end it is the job of the federal 
government to decide who to admit and who to deny visas, residency and 
citizenship, and against whom to enforce federal immigration law.
---------------------------------------------------------------------------
    \13\ See, e.g., Lopez v. City of Rogers, Civil Action No. 01-5061 
(W.D.Ark. 2002).

        <bullet> LCongress should insist upon receiving a copy of the 
        new DOJ Office of Legal Counsel opinion, and review the 
        advisability of involving state and local police in immigration 
        matters. As the Homeland Security Act is being implemented, 
        regulations and oversight should provide that state and local 
        police may only be involved in immigration matters under very 
        limited circumstances, as prescribed by well-settled 
        constitutional law.\14\
---------------------------------------------------------------------------
    \14\ For example, under current federal law, Memoranda of 
Understanding (``MOU'') between local police and the INS typically 
provide that local police ``shall not stop an individual on the street 
or pull over a car, when an individual/driver has not committed a 
violation, merely to find out whether the person can prove he or she is 
in the U.S. legally.'' Such MOUs further stipulate that ``officers will 
not contact the INS without notifying the police chief, and that when 
foreign-born suspects are in custody, they will be guaranteed access to 
a lawyer and consular officials.'' See, e.g., J. Elliston, ``Busting 
Trust? Latino leaders want assurances that a new INS squad won't prompt 
racial profiling by local police,'' supra. n. 5.

        <bullet> LIf state and local police are at all involved in 
        immigration law enforcement, they should be accountable under 
        the highest standards of the Equal Protection clause.\15\
---------------------------------------------------------------------------
    \15\ See Matthews v. Diaz, 426 U.S. 67 (1976); Graham v. 
Richardson, 403 U.S. 365 (1971)(anti-immigrant welfare discrimination 
violates Equal Protection); and See Takahashi v. Fish & Game Comm'n., 
334 U.S. 410 (1948)(anti-immigrant discrimination in granting of 
commercial fishing licenses violated Equal Protection); Yick Wo v. 
Hopkins, 118 U.S. 356 (1886)(same for anti-immigrant laundry licensing 
scheme). It is important to note that when state and local police, or 
for that matter any federal officials, make decisions based upon race 
or ethnicity-stopping Latinos on the basis of being Latino-their 
actions are subject to strict scrutiny under the Equal Protection 
clause.

    3. LHuman rights violations at our border with Mexico have been 
well-documented by the United Nations, which found that Operation 
Gatekeeper and other similar tactics are leading to the death of 
hundreds of Mexicans in the desert every year. Operation Gatekeeper has 
diverted illegal border crossings from California to the harsh and 
dangerous Arizona desert, increased abuses of migrants by smugglers, 
drug traffickers, and traffickers in women and children, but has not 
reduced illegal immigration at all. The U.N. denounced the private 
vigilantes who are undertaking to intercept Mexican migration, 
documenting their racism and xenophobia, and further denounced the 
impunity with which vigilantes terrorize peasants crossing the 
border.\16\
---------------------------------------------------------------------------
    \16\ The United Nations Special Rapporteur on Migration found that 
the International Covenant on Civil and Political Rights (``ICCPR''), 
the Convention for the Elimination of all forms of Racial 
Discrimination (``CERD''), the Convention for the Elimination of all 
forms of Discrimination Against Women (``CEDAW''), and the Convention 
Against Torture were being violated at the border, and that the 
government should take all measures necessary to remedy these human 
rights violations. As Congress is aware, all of these treaties (and the 
legal obligations therein) have been ratified by and are part of the 
internal law of the United States. U.N. Spec. Rap. Human Rights of 
Migrants, Executive Summary, Mission to the Border of the United States 
and Mexico, U.N. Doc. No. E/CN.4/2003/85/Add.3 (Oct. 30, 2002).
---------------------------------------------------------------------------
    Now, more than ever, we need the cooperation of the United Nations, 
and we most certainly need to maintain good relations with our Mexican 
neighbors, who we count on for economic stability and national 
security. Violating the human rights of Latin Americans crossing the 
border will do nothing to increase national security, and in fact may 
set us back. Every human being is entitled to respect of his or her 
fundamental human rights.

        <bullet> LFor all these reasons, we urge Congress to consider 
        the relevance of the high-level bilateral negotiations that 
        were underway in 2001, in which the United States and Mexico 
        were ``to hold formal negotiations on the future direction of 
        migration policies in order to 'create a process of orderly 
        migration that guarantees humane treatment of migrants, 
        provides protection of their legal rights, ensures acceptable 
        work conditions for migrants and also recognizes the right of 
        nations to control the flow of people across their 
        borders.'"\17\
---------------------------------------------------------------------------
    \17\ Id. @ para.53 (citing United States-Mexico Joint Communique on 
Migration Talks, June 2001, www.state.gov/r/pa/prs/ps/2001/3733.htm 
(consulted on July 12, 2002)).

        <bullet> LAnd we urge the DHS to ensure compliance with the 
        human rights law embodied in our American constitutional 
        system, which is founded upon the respect for and equal 
        protection of individual rights and liberties.\18\
---------------------------------------------------------------------------
    \18\ The legal norms of human rights treaties cited by the U.N. 
Special Rapporteur on Migration (ICCPR, CEDAW, CERD, CAT)(note 15, 
supra.) are also embodied in the fundamental values of our nation and 
in the 1st, 4th, 5th and 14th amendments of our Constitution, which 
apply to all persons within our borders, even including those who 
entered illegally. Matthews v. Diaz, 426 U.S. 67 (1976); Plyler v. Doe, 
457 U.S. 202 (1982).

    4. LFinally, this is the time to recognize that our failed 
immigration policy must be normalized. This Congress must re-evaluate 
and change the complete lack of legal recognition of millions of 
immigrants who are the backbone of the U.S. economy. For example, 
everyone is aware that there are over 4 million undocumented Mexicans 
living and working here in the U.S., providing our services, 
construction, agricultural and other industries with essential labor, 
by doing the jobs that U.S. citizens and residents do not want. As Alan 
Greenspan acknowledges, even with the current economic crisis, our 
economy is dependent on undocumented workers, who are replacing the 
productivity lost through the aging of our workforce.\19\
---------------------------------------------------------------------------
    \19\ See Federal Reserve Board Chairman Alan Greenspan's Semiannual 
Monetary Report to Congress, Uncertainty on Iraq Limits Economic 
Growth, Greenspan Says, U.S. Dept. of State, Int.l. Info. Programs 
(Feb. 11, 2003) @ p. 9.
---------------------------------------------------------------------------
    The portion of Mexican workers in the U.S. has doubled in the past 
decade, and they are providing work that is increasingly vital to the 
U.S. economy.\20\ The great majority of undocumented Mexicans came here 
to save their families from abject poverty.\21\ Under the North 
American Free Trade Agreement (``NAFTA''), jobs are being lost in 
Mexico, which is now importing U.S. agricultural products.\22\ As long 
as globalization is crucial to the U.S. economy, our free trade policy 
must take into account migration.
---------------------------------------------------------------------------
    \20\ See Mexican Immigrants and the U.S. Economy: An Increasingly 
Vital Role, Vol. 1, Issue 2, Immigration Policy Focus (American 
Immigration Law Found., Sept. 2002).
    \21\ See Dan Griswold, Willing Workers: Fixing the Problem of 
Illegal Mexican Migration to the U.S. (Cato Institute, Trade Policy 
Analysis No. 19, Oct. 15, 2002).
    \22\ Ginger Thompson, ``Nafta to Open Floodgates, Engulfing Rural 
Mexico,'' New York Times (Dec. 9, 2002), at A3.

        <bullet> LFor whatever reason 8-9 million undocumented workers 
        are here, Congress must guard against jeopardizing the U.S. 
        economy by marginalizing their contribution. Moreover, this is 
        no time to keep millions of people legally unidentifiable and 
        unable to interact with government about safety and national 
---------------------------------------------------------------------------
        security issues.

        <bullet> LFor all these reasons, MALDEF urges Congress to re-
        open the legalization discussions that culminated in the Fox-
        Bush visit of September 5, 2001, and remember our commitment to 
        provide for legalization of undocumented workers in the U.S., 
        and to negotiate fair and effective future migration 
        policies.\23\

    \23\ As the CATO Institute summarizes: ``Although the U.S. 
government has encouraged closer trade, investment, and political ties 
with Mexico, it has labored in vain to keep a lid on the flow of labor 
across the border. Since 1986, the numbers of tax dollars appropriated 
and agents assigned for border control have risen dramatically, yet by 
any real measure of results, the effort to constrict illegal 
immigration has failed. . . . Demand for low-skilled labor continues to 
grow in the United States while the domestic supply of suitable workers 
inexorably declines-yet U.S. immigration law contains virtually no 
legal channel through which low-skilled immigrant workers can enter the 
country to fill that gap. The result is an illegal flow of workers 
characterized by more permanent and less circular migration, smuggling, 
document fraud, deaths at the border, artificially depressed wages, and 
threats to civil liberties. . . .

  ``Legalizing Mexican migration would, in one stroke, bring a huge 
underground market into the open. It would allow American producers in 
important sectors of our economy to hire the workers they need to grow. 
It would raise wages and working conditions for millions of low-skilled 
workers and spur investment in human capital. It would free resources 
and personnel for the war on terrorism.'' Dan Griswold, Trade Policy 
Analysis No. 19, supra. n. 20.
        <bullet> LThe situation of all undocumented persons should be 
        normalized so that we can move forward towards economic 
        recovery and national security together.

        <bullet> LRecent Congressional proposals along these lines 
        deserve urgent attention, as we must take these reasonable 
        economic and national security concerns into account, and 
        fashion a just, effective, sensible solution to the fate of 8-9 
        million people living in the U.S.
                              Conclusion:
    The problems discussed above existed long before September 11, 
2001, and will continue to exist and become compounded unless they are 
addressed directly. Across the board, experts agree that failure to 
resolve these problems will only be detrimental to our collective 
national security.\24\ The Homeland Security Act in and of itself does 
not provide adequate protection for civil rights. MALDEF urges this 
Congress and the Administration to take positive, concrete measures to 
ensure the protection of the fundamental rights of immigrants, as we 
make the transition to the new Department of Homeland Security.
---------------------------------------------------------------------------
    \24\ See Moving Forward in Reforming Our Immigration System: Quotes 
from Across the Spectrum (Nat'l. Immigration Forum, Feb. 2003)(citing 
Editorials, Columns and Op-Eds, Elected and Appointed Officials, 
including the Bush Administration, and Diverse Allies of the Nat'l. 
Immigration Forum).

    A national non-profit organization, MALDEF promotes and protects 
the rights of Latinos through advocacy, community education and 
outreach, leadership development, higher education scholarships and 
when necessary, through the legal system.
                                 # # #
                           February 25, 2003

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                   - 

</pre></body></html>
